Department of Homeland Security
   Ofﬁce of Inspector General

         The State of New Jersey’s Management of 

          State Homeland Security Program and 

           Urban Areas Security Initiative Grants 

               Awarded During Fiscal Years 

                     2007 through 2009





OIG-11-112                                   September 2011
                                                         Office of Inspector General

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                             SEPT 26 2011

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

The attached report addresses the strengths and weaknesses of the State of New Jersey’s
management of State Homeland Security Program and Urban Areas Security Initiative
grants. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations and inspections, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 2 


           State Could Not Quantify Improved Preparedness ................................................ 3 

           Recommendations .................................................................................................. 4 

           Management Comments and OIG Analysis .......................................................... 5 


           Subgrantee Program Monitoring Needs Improvement .......................................... 6 

           Recommendations .................................................................................................. 9 

           Management Comments and OIG Analysis ........................................................ 10 


           Untimely Obligation of Grant Funds ................................................................... 12 

           Recommendation ................................................................................................. 14 

           Management Comments and OIG Analysis ........................................................ 14 


           Untimely Expenditure of Grant Funds ................................................................. 15 

           Recommendation ................................................................................................. 17 

           Management Comments and OIG Analysis ........................................................ 17 


           Noncompliance With Grant Inventory Requirements ......................................... 18 

           Recommendation ................................................................................................. 19 

           Management Comments and OIG Analysis ........................................................ 19 


           Best Practice: State of New Jersey’s Grant Tracking System ............................ 20 


Appendices
           Appendix A: Purpose, Scope, and Methodology ............................................... 22 

           Appendix B: FEMA Management Comments to the Draft Report ................... 25 

           Appendix C: State of New Jersey Management Comments to the 

                       Draft Report ................................................................................. 30 

           Appendix D: Description of Homeland Security Grant Program ...................... 37 

           Appendix E: Description of State of New Jersey’s Homeland Security

                       Grant Program .............................................................................. 38 

           Appendix F: New Jersey Grant Funding Compliance Issues ........................... 41 

           Appendix G: Potential Monetary Benefits ........................................................ 45 

           Appendix H: Major Contributors to this Report ................................................ 46 

           Appendix I: Report Distribution ...................................................................... 47 

Table of Contents/Abbreviations
Abbreviations
     DHS        Department of Homeland Security
     FEMA       Federal Emergency Management Agency
     FY         fiscal year
     OIG        Office of Inspector General
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Public Law 110-53, Implementing Recommendations of the 9/11
                      Commission Act of 2007, requires the Department of Homeland
                      Security, Office of Inspector General, to audit individual states’
                      management of State Homeland Security Program and Urban
                      Areas Security Initiative grants. This report responds to the
                      reporting requirement for the State of New Jersey.

                      The objectives of the audit were to determine if the State of New
                      Jersey distributed and spent State Homeland Security Program and
                      Urban Areas Security Initiative grant funds (1) effectively and
                      efficiently and (2) in compliance with applicable federal laws and
                      regulations. We also addressed the extent to which grant funds
                      enhanced New Jersey’s ability to prevent, prepare for, protect
                      against, and respond to natural disasters, acts of terrorism, and
                      other man-made disasters. The audit included a review of
                      approximately $174 million in State Homeland Security Program
                      and Urban Areas Security Initiative grants awarded to New Jersey
                      during fiscal years 2007 through 2009.

                      Generally, the State of New Jersey distributed and spent State
                      Homeland Security Program and Urban Areas Security Initiative
                      grant funds effectively and efficiently and in compliance with
                      applicable federal laws and regulations. The state effectively
                      developed its Homeland Security Strategic Plan, and allocated and
                      spent funds based on national and state priorities. We identified
                      one best practice that should be considered for sharing with other
                      jurisdictions.

                      However, improvements are needed in four areas: developing a
                      comprehensive performance measurement system, strengthening
                      on-site monitoring activities, obligating and expending grant funds
                      timely, and complying with federal inventory and accountability
                      requirements. Federal Emergency Management Agency officials
                      concurred with all 11 recommendations. Federal Emergency
                      Management Agency and State of New Jersey written comments to
                      the draft report are incorporated as appropriate and included in
                      their entirety in appendix B and appendix C, respectively.


          The State of New Jersey’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 1

Background
                     The Homeland Security Grant Program provides federal funding to help
                     state and local agencies enhance their capabilities to prevent, deter,
                     respond to, and recover from terrorist attacks, major disasters, and other
                     emergencies. Appendices A and D provide a detailed description of the
                     interrelated grant programs that comprise the Department of Homeland
                     Security (DHS) Homeland Security Grant Program.

                     The New Jersey Office of Homeland Security and Preparedness is the
                     State Administrative Agency designated to provide administrative
                     oversight over the Homeland Security Grant Program. In March 2006,
                     Executive Order 5 created the Office of Homeland Security and
                     Preparedness as a cabinet-level agency within the state government to
                     administer, coordinate, lead, and supervise New Jersey’s counterterrorism
                     and preparedness efforts. This office provides overarching guidance,
                     coordination, administration, and oversight of training programs,
                     exercises, and intelligence related to counterterrorism. Appendix E
                     provides additional details on components involved in New Jersey’s
                     Homeland Security Grant Program coordination process.

                     New Jersey received $186,723,581 in Homeland Security Grant Program
                     funds during fiscal years (FYs) 2007 through 2009. This included
                     $173,783,150 in State Homeland Security Program and Urban Areas
                     Security Initiative grants.

                     Appendix A provides details on the purpose, scope, and methodology of
                     this Office of Inspector General (OIG) audit.

Results of Audit
     Generally, the State of New Jersey distributed and spent State Homeland Security
     Program and Urban Areas Security Initiative grant funds effectively and efficiently and in
     compliance with applicable federal laws and regulations. The State did an effective job
     of developing its Homeland Security Strategic Plan, and allocated and spent funds based
     on national and state priorities. We identified one best practice that should be considered
     for sharing with other jurisdictions.

     However, the following improvements are needed to enhance New Jersey’s grant
     management practices:

            Developing a comprehensive performance measurement system, 

            Strengthening on-site monitoring activities, 

            Obligating and expending grant funds in a timely manner, and 

            Complying with federal inventory record and accountability requirements. 

             The State of New Jersey’s Management of State Homeland Security Program and

          Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                 Page 2

State Could Not Quantify Improved Preparedness
      New Jersey could not demonstrate quantifiable preparedness improvement and
      accomplishments because its Office of Homeland Security and Preparedness did
      not set measurable target levels of performance that can be compared to actual
      achievement. Without measurable goals and objectives and a mechanism to
      collect unbiased results-oriented data from subgrantees, the state does not have a
      basis to evaluate the effect of grant expenditures on its preparedness and response
      capabilities.

      Code of Federal Regulations Title 44 §13.40(a), Monitoring and reporting
      program performance, requires that grantees monitor grant and subgrant
      supported activities to ensure that performance goals are being achieved.
      Department of Homeland Security State and Urban Areas Homeland Security
      Strategy Guidance on Aligning Strategies with the National Preparedness Goal,
      dated July 22, 2005, states that an objective sets a tangible and measurable target
      level of performance over time against which actual achievement can be
      compared, including a goal expressed as a quantitative standard, value, or rate.
      Therefore, an objective should be:

               Specific, detailed, particular, and focused—helping to identify what is to
               be achieved and accomplished;
               Measurable—quantifiable, providing a standard for comparison, and
               identifying a specific achievable result;
               Achievable—not beyond a state, region, jurisdiction, or locality’s ability;
               Results-oriented—identifies a specific outcome; and
               Time-limited—a target date identifies when the objective will be achieved.

      Although the goals and objectives in the State’s Strategic Plan were consistent
      with federal requirements, they did not set a measurable target level of
      performance that can be compared to actual achievement. For example, one of
      the State’s objectives was to provide the skills, knowledge, and ability the medical
      community needs to respond to a catastrophic emergency or disaster and furnish
      medical care to victims and identify casualties. Examples of two steps that were
      not measurable for this objective were: (1) Medical Surge—To provide the
      existing health care system with the resources needed to provide definitive care to
      individuals during the rapid increase in demand for medical services; and (2)
      Mass Care—To coordinate and provide for the immediate and life-supporting
      needs to impacted populations for a catastrophic event or emergency.

      State officials acknowledged that they have struggled with a measurement tool for
      assessing improvements in the state’s preparedness and response capabilities.
      They believe a metric of this type would be extremely difficult to develop because
      the strategy contains goals and objectives that are difficult to measure.


       The State of New Jersey’s Management of State Homeland Security Program and

    Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                           Page 3

                The Post-Katrina Emergency Management Reform Act of 2006 requires any state
                receiving federal preparedness assistance to submit a State Preparedness Report to
                the Federal Emergency Management Agency (FEMA). New Jersey’s FY 2010
                State Preparedness Report rated its progress toward achieving target capabilities.
                However, the ratings were not measurable because they were based on the
                subjective judgments of committee members, subject matter experts, and local
                first responders.

                A recent Government Accountability Office report1 indicated that FEMA, in
                response to Public Law 111-271, Redundancy Elimination and Enhanced
                Performance for Preparedness Grants Act, is planning to generate measurable
                national preparedness capability requirements and evaluation criteria (in terms of
                speed, effectiveness, and efficiency, among other factors). These requirements
                and criteria are to provide a comprehensive framework for guiding investments
                and assessing readiness. The report also indicated that FEMA is working with the
                National Academy of Public Administration to develop the plan by December
                2011.

                Without adequate measurable goals and objectives, the State did not have a
                sufficient basis to evaluate the effect of grant expenditures on its preparedness and
                response capabilities. Also, the State was unable to adequately determine
                progress toward goals and objectives in future funding and management
                decisions.

                Recommendations
                         We recommend that the Assistant Administrator, Grant Programs
                         Directorate, assist the Director of the New Jersey Office of Homeland
                         Security and Preparedness in developing a comprehensive performance
                         measurement system that:

                         Recommendation #1: Accurately captures the program’s overall
                         performance and progress toward enhancing preparedness as a result of
                         the Homeland Security Grant Program.

                         Recommendation #2: Implements and manages specific milestones for
                         achieving progress toward target capability assessment goals at the state,
                         Urban Areas Security Initiative area, regional, and state agency levels.




1
 Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars, and Enhance Revenue
(GAO-11-318SP), March 1, 2011.

                 The State of New Jersey’s Management of State Homeland Security Program and 

              Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 4

  Management Comments and OIG Analysis
           FEMA concurred with recommendations 1 and 2. FEMA said that its
           National Preparedness Directorate, the FEMA entity responsible for
           developing preparedness performance measurement systems, is revising
           the guidance and the target capability assessment goals at the state,
           regional, and urban area levels that are anticipated for release in late 2011
           in advance of the FY 2012 Homeland Security Grant Program application
           cycle. The Preparedness Grants Division, within FEMA’s Grant Programs
           Directorate, will require the Director of the New Jersey Office of
           Homeland Security and Preparedness to comply with revised guidelines
           developed by the National Preparedness Directorate.

           State officials acknowledged that like other states and the federal
           government, they have struggled with a measurement tool. The State said
           that New Jersey has incorporated the seven national priorities and four
           state priorities into its State Homeland Security Strategy. All 37 target
           capabilities are included within the national and state priorities. Since the
           inception of FEMA’s Capabilities Based Planning (i.e., the 37 target
           capabilities), under the FY 2006 Homeland Security Grant Program
           planning process, the Office of Homeland Security and Preparedness has
           continued to utilize target capabilities and their associated activities and
           tasks for the planning and prioritization of State Homeland Security
           Program and Urban Areas Security Initiative project funding. New Jersey
           officials also commented that FEMA has not provided the states and
           territories with a comprehensive automated effectiveness assessment tool
           that can be utilized by both local units of government and the state.

           State officials further said that New Jersey has utilized FEMA’s FY 2010
           State Preparedness Report Survey Tool assessment data as a baseline of
           levels of capability within each of the 37 target capabilities. The State,
           through the Office of Homeland Security and Preparedness and its state
           agency partners, assessed each of the 37 target capabilities on behalf of the
           21 counties in an effort to measure its homeland security performance and
           progress towards enhancing preparedness. Taking its performance
           measurement system one step further, the State will require its 21 counties
           to update their respective county homeland security strategic plans and
           prepare a county-centric State Preparedness Report that accurately reflects
           each county’s levels of capability on an annual basis. The counties will
           use their State Preparedness Report scoring as a baseline level of
           capability, and will rescore their State Preparedness Report assessments
           each year based upon previous funding cycle project information. New
           Jersey will use this system to measure improvements in the State’s and
           each county’s prevention, protection, response, and recovery capabilities.


   The State of New Jersey’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 5

              The comments by FEMA and the State are responsive to the two
              recommendations. If properly implemented, the actions identified in the
              responses should address the conditions identified during the audit.
              However, until a firm timetable for implementing the recommendations is
              provided, the two recommendations will remain unresolved and open.

Subgrantee Program Monitoring Needs Improvement
     The Office of Homeland Security and Preparedness could better monitor
     subgrantees’ compliance throughout the grant performance period to ensure that
     subgrantees were administering Homeland Security Grant Program awards in
     accordance with federal laws and regulations. The State did not conduct periodic
     on-site monitoring while projects were ongoing to ensure subgrantee compliance
     with federal requirements. Instead, the State focused its on-site monitoring
     activities on the grant closeout process. During our site visits, we observed
     several issues, such as improper payments or questionable purchases that could
     have been identified earlier with periodic on-site monitoring of subgrantee
     performance. State officials told us that they will look for ways to increase and
     improve their on-site monitoring efforts.

     Code of Federal Regulations Title 44 §13.40, Monitoring and reporting program
     performance, establishes requirements for monitoring grant program
     performance. The regulation require grantees to (1) provide day-to-day
     management of all grant and subgrant supported activities and (2) ensure that
     subgrantees comply with applicable federal requirements and achieve program
     performance goals. The regulation also specifies that the grantees’ monitoring
     programs cover each program, function, or activity, and requires subgrantees to
     adhere to the same performance monitoring and reporting standards as required of
     grantees.

     Office of Management and Budget Circular A-133, Compliance Supplement, Part
     3-M, states that grantees are responsible for monitoring subgrantee use of federal
     awards through reporting, site visits, regular contact, or other means. Grantee
     monitoring should provide reasonable assurance that the subgrantee administers
     federal awards in compliance with laws and regulations, as well as the provisions
     of contracts or grant agreements.

              Current Monitoring Activities

              The Office of Homeland Security and Preparedness had two primary
              monitoring functions, but neither ensured subgrantee compliance with
              federal requirements. Major subgrantee monitoring activities included
              (1) tracking grant-funded projects and activities via a comprehensive
              automated Grant Tracking System and (2) making site visits to selected
              subgrantees during a grant’s closeout process. However, the Grant

      The State of New Jersey’s Management of State Homeland Security Program and 

   Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                          Page 6

           Tracking System is limited to tracking financial data, and the on-site
           monitoring effort did not address compliance with federal requirements
           throughout the grant performance period.

           Through the Office of Homeland Security and Preparedness’s automated
           Grant Tracking System, subgrantees must enter and update information on
           each funded project from approval through completion or termination.
           The financial data tracked by this system included the amount of grant
           funds allocated to the project, the amount expended to date, and the
           remaining balance.

           An Office of Homeland Security and Preparedness audit team is responsible
           for conducting site visits to evaluate local subgrantees’ (counties, cities, and
           state agencies) adherence to Homeland Security Grant Program
           requirements at grant closeout. Specifically, the audit team reviews all
           purchases with a value of $5,000 or more to ensure that projects are
           complete and meet all target capabilities listed on the spending plan, and
           that purchased equipment has been deployed and can be used as intended.
           In addition, the audit team assesses training, record-keeping, and inventory
           methods.

           Documentation provided showed that the audit team conducted 44 site
           visits during the past 4 years (2007 through 2010), but because visits were
           usually conducted during a grant’s closeout, none of these site visits
           covered the FYs 2007 through 2009 State Homeland Security Program or
           Urban Areas Security Initiative grants. An Office of Homeland Security
           and Preparedness auditor reported that the number of site visits conducted
           has been limited in recent years because of insufficient personnel, multiple
           personnel changes, site visits taking longer than anticipated, and other
           office assignments.

           In addition, we have concerns about the timing and scope of the site visits.
           The visits occurred during a grant’s closeout process, rather than while the
           project was ongoing. Since the grant closeout process can occur a number
           of years after the project is completed, corrective actions for identified
           problems could be too late or considerably delayed. Office of Homeland
           Security and Preparedness site visit guidance also places little or no
           emphasis on compliance issues such as insufficient justification for sole-
           source procurements, front-loading of contracts, and ineffective use of
           equipment, all problems that were identified during our review.

           Subgrantee Compliance Issues

           During our asset verification and documentation review, we observed
           several compliance issues that could have been identified through routine

   The State of New Jersey’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 7

           on-site monitoring of subgrantee performance. Specifically, we identified
           instances of improper, unauthorized, or undocumented uses of grant
           funding representing a total value of $2,657,212, and inefficient uses
           totaling $585,519, which went undiscovered or unmitigated as a result of
           inadequate monitoring, as shown in table 1.

           Table 1. New Jersey Grant-Funding Compliance Issues
                                                      Improper,
                                                                                Inefficient
                        Compliance Issue            Unauthorized, or
                                                                                   Use
                                                   Undocumented Use
            Improper Payment for Equipping an
                                                        $ 1,500,000
            Emergency Operations Center
            Inadequate Supporting Documentation
                                                            861,044
            for Claimed Expenditures
            Goods and Services Procured Without
                                                            239,944
            Full and Open Competition
            Vehicle Used for Daily Commuting
                                                             30,839
            Purposes
            Health Monitors Deployed for Daily Use           25,385
            Training Not Provided to Deploy
                                                                                $212,166
            Tactical and Rescue Equipment
            Memorandum of Understanding Needed
                                                                                   28,150
            to Deploy Utility Trailers
            Agreement Between County and State
            Officials Needed to Deploy Photo                                       43,988
            Identification System
            Frequency Licenses Needed to Deploy
                                                                                  286,499
            Interoperable Equipment
            Computer Equipment Not Deployed                                        14,716
                             Total                            $ 2,657,212       $ 585,519


           For example, an Urban Areas Security Initiative subgrantee paid a U.S.
           General Services Administration contractor before goods and services
           were fully rendered. This subgrantee was reimbursed $1,500,000 for
           equipping an Emergency Operations Center; however, no equipment had
           been installed, and less than $150,000 worth of materials had actually
           been procured. Another Urban Areas Security Initiative subgrantee
           awarded three sole-source training contracts totaling $254,444 without
           public bidding or obtaining prior written approval from the Office of
           Homeland Security and Preparedness. As of October 2010, the contractor
           had been reimbursed $239,944 in grant funds. If these types of issues had
           been identified during monitoring visits, the Office of Homeland Security
           and Preparedness would have been able to assess the problems earlier and
           take timely corrective actions. Appendices F and G provide additional
           details on the compliance issues and potential monetary benefits identified
           during our on-site asset verification and documentation review.


   The State of New Jersey’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 8

  Recommendations
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the Director of the New Jersey Office of Homeland
           Security and Preparedness to:

           Recommendation #3: Strengthen and schedule its on-site monitoring
           activities throughout the grant performance period to ensure subgrantee
           compliance with federal requirements, including:
                    Full and open competition for procurement actions; 

                    Obtaining written approval from Office of Homeland Security and 

                    Preparedness prior to awarding sole-source contract procurements; 

                    Ensuring that vehicles are used solely for their authorized purpose;

                    and 

                    Following record retention requirements and properly maintaining 

                    records. 


           Recommendation #4: Return to FEMA the $1,500,000 that an Urban
           Areas Security Initiative Office of Homeland Security and Preparedness
           subgrantee paid to a General Services Administration contractor before
           goods and services were fully rendered.

           Recommendation #5: Recover and either return to FEMA or reprogram
           the $861,044 in unsupported Homeland Security Grant Program
           expenditures.

           Recommendation #6: Ensure that the Urban Areas Security Initiative
           subgrantee does not process any further sole-source procurement
           resolutions for Community Emergency Response Team and National
           Incident Management System training until written approval is obtained.

           Recommendation #7: Ensure that the eight “tele-health monitors”
           purchased by a local subgrantee at a cost of $25,385 are returned to
           inventory and the State is reimbursed for the expended lifespan of the
           equipment.

           Recommendation #8: Follow up with subgrantees and take appropriate
           steps to ensure that:
                   Required training is provided to deploy federally funded tactical
                   and rescue equipment;
                   Memorandums of understanding needed to deploy five utility
                   trailers are finalized;
                   Agreement is reached to deploy a photo identification system;
                   Frequency licenses are obtained to deploy interoperable
                   communications equipment; and
   The State of New Jersey’s Management of State Homeland Security Program and

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 9

                   Computer equipment is assigned or reassigned for use during its
                   useful life.

  Management Comments and OIG Analysis
           FEMA concurred with recommendation 3. FEMA said that within 90
           days of the receipt of the final report via the grant notification letter, the
           Director of the New Jersey Office of Homeland Security and Preparedness
           is required to fully implement a monitoring program to be compliant with
           Code of Federal Regulations Title 44 §13.40 (a), Monitoring by grantee.
           To be included in this monitoring program are the requirements that
           subgrantee monitoring ensures full and open competition for procurement
           actions, state sole-source rules and regulations are adhered to, vehicles are
           used solely for authorized purposes, record retention requirements are met,
           and records are properly maintained.

           State officials said that New Jersey has incorporated administrative and
           programmatic modification in four areas:

                   Office of Homeland Security and Preparedness Grant Bureau audit
                   policy. The Audit Unit has shifted focus from closed-out grant
                   audits to open grant audits. Selected reimbursement requests from
                   subgrantees are being audited prior to reimbursement. Asset
                   verification, deployment, training needs, methods of procurement,
                   and required written agreements with other agencies are now
                   examined routinely.

                   Office of Homeland Security and Preparedness Grant Tracking
                   System data requirements. The Grant Tracking System has been
                   enhanced to require the entry of additional budgetary line item data
                   elements to include: method of procurement, status of necessary
                   training if required prior to deployment, uploading of a
                   memorandum of understanding, and deployment status of assets.

                   Homeland Security Grant Program funded Vehicle Operator’s
                   Logs for all vehicles funded by the Homeland Security Grant
                   Program. All subgrantees shall complete a Vehicle Operator’s Log
                   on a monthly basis. These logs are maintained at the subgrantee
                   level and are a component of the semi-annual Office of Homeland
                   Security and Preparedness and subgrantee Homeland Security
                   Grant Program status and performance review.

                   Office of Homeland Security and Preparedness’s semiannual
                   subgrantee administrative and programmatic reviews conducted by
                   its liaisons. Liaisons are now required to conduct semi-annual

   The State of New Jersey’s Management of State Homeland Security Program and

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 10

                   programmatic visits for subgrantees awarded funding under the
                   Homeland Security Grant Program. All open grants with each
                   subgrantee will have a status and performance review twice a year
                   to include a review of project progress, vehicle logs, personnel
                   certification forms, memorandums of understanding, deployment
                   status of grant-funded items, required training for grant-funded
                   items, reimbursement requests, subgrantees’ Homeland Security
                   Strategic Plan, FY 2010 State Performance Report target
                   capabilities performance measurement reporting, and inventory
                   system and records retention practices.

           The actions proposed by FEMA and the State of New Jersey are responsive
           to the intent of the recommendation. If properly implemented, the actions
           identified in the responses should address the conditions identified during
           the audit. This recommendation is considered resolved and open pending
           FEMA notification and verification that the Director of the Office of
           Homeland Security and Preparedness has developed a monitoring program
           to ensure subgrantee compliance with federal requirements.

           FEMA concurred with recommendation 4. FEMA said that upon learning
           of this finding, formal correspondence was sent to New Jersey requesting
           the $1,500,000 be returned by February 24, 2011. New Jersey returned
           the $1,500,000 to FEMA on March 31, 2011. This recommendation is
           resolved and closed.

           FEMA concurred with recommendation 5. FEMA said that New Jersey
           has located and provided FEMA with missing documentation accounting
           for the $861,044 in previously unsupported Homeland Security Grant
           Program expenditures on May 2, 2011. The actions taken are responsive
           to address the recommendation. This recommendation is resolved and
           closed.

           FEMA concurred with recommendation 6. FEMA said that upon learning
           of this finding, it notified New Jersey on February 9, 2011, of its sole-
           source procurement rules and regulations. Specifically, New Jersey and
           its subrecipients were reminded to follow all FEMA’s financial policy
           guidance as outlined in the special conditions of their awards each grant
           year. Failure to comply with these terms and conditions may result in
           disallowance of costs and recovery of funds and/or suspension or
           termination of funds and/or award. The action taken is responsive to
           address the recommendation. This recommendation is resolved and
           closed.

           FEMA concurred with recommendation 7. FEMA said that on March 28,
           2001, New Jersey was reimbursed by the county for the lifespan of the

   The State of New Jersey’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 11

               equipment and notified FEMA that the eight “tele-health monitors” have
               been returned to inventory. According to FEMA, a check from the State
               of New Jersey for $7,791.94 was received by FEMA on September 1,
               2011, as reimbursement for the percentage of lifespan expended. This
               recommendation is resolved and closed.

               FEMA concurred with recommendation 8. FEMA said that within 90
               days of receipt of the final report via the grant notification letter, the
               Director of the New Jersey Office of Homeland Security and Preparedness
               is required to follow up with the subgrantees and resolve the following
               concerns:

                       Provide required training to deploy federally funded tactical and
                       rescue equipment.
                       Develop and finalize memorandums of understanding needed to
                       deploy five utility trailers.
                       Reach an agreement to deploy a photo identification system.
                       Obtain frequency licenses to deploy interoperable communications
                       equipment.
                       Assign or reassign computer equipment uses.

               The actions proposed by FEMA are responsive to the intent of the
               recommendation. If properly implemented, the actions identified in the
               response should address the conditions identified during the audit. This
               recommendation is considered resolved and open pending FEMA
               notification and verification that the Office of Homeland Security
               Preparedness has followed up with subgrantees and resolved open action
               items.

Untimely Obligation of Grant Funds
      The State of New Jersey did not make funds available to all Urban Areas Security
      Initiative subgrantees in accordance with federal pass-through requirements.
      Although the Office of Homeland Security and Preparedness generally met the
      established timeframe for submitting the state’s required Initial Strategy
      Implementation Plan to FEMA, Urban Areas Security Initiative funds for
      FYs 2007 through 2009 were not available to subgrantees until as many as 175
      days after the required period. This occurred because of delays by both the Urban
      Areas Security Initiative Executive Committee and Office of Homeland Security
      and Preparedness in approving spending plans. Delays in making funds available
      to the subgrantee may delay projects intended to increase homeland security and
      achieve program objectives.

      The Special Terms and Conditions of the FEMA FY 2007 Homeland Security
      Grant Program award require recipients to submit funding allocations to FEMA

       The State of New Jersey’s Management of State Homeland Security Program and

    Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                          Page 12

  within 60 days of the grant award through the Initial Strategy Implementation
  Plan. The funding is to be allocated per investment based upon the final grant
  award amounts and a certification that funds have been obligated to local units of
  government (to include the identification of subgrantees and subaward amounts).
  Failure to provide this information within 60 days may result in FEMA
  withholding grant funds from further drawdown. FEMA Homeland Security
  Grant Program guidance also requires that each state make no less than 80% of
  the total grant program amount available to local units of government, including
  identified Urban Areas, within 60 days of the receipt of funds. In FYs 2008 and
  2009, the requirement was changed to 45 days.

  Review of FY 2007 through FY 2009 Urban Areas Security Initiative award
  letters for nine Urban Areas Security Initiative subgrantees (seven counties and
  two municipalities) showed that in 26 of 27 instances, grant award notification
  letters had not been sent within the established timeframe (45 or 60 days, as
  applicable), as shown in table 2. The Office of Homeland Security and
  Preparedness delayed the grant award notification letters to the subgrantees that
  informed them that funds had been awarded and would be available for
  reimbursement of allowable expenditures between 69 and 175 days beyond the
  required timeframe.

  Table 2: Timeliness of Urban Areas Security Initiative Subgrantee Awards
          (FYs 2007–2009)
               Funds                      Number          Number
   Fiscal Required to be Notification     of Days           of          Award
   Year     Obligated by       Date         Late        Subgrantees    Amount
    2007       10/13/07         12/21/07          69             9          $ 6,878,872
    2008       10/09/08         02/20/09         134*            8          $ 8,648,083
    2009       10/05/09         12/16/09          72             9          $ 7,250,204
  * One subgrantee received notification 175 days late.

  Office of Homeland Security and Preparedness officials believe they complied
  with FEMA requirements by submitting its Initial Strategy Implementation Plan,
  but acknowledged that the structure of the Urban Areas Security Initiative
  Executive Committee was a primary cause of the delay in making funds available
  for reimbursement to its Urban Areas Security Initiative subgrantees. The Office
  of Homeland Security and Preparedness cannot make funds available until all
  spending plans are approved by the Executive Committee (not a government
  agency) and submitted for Office of Homeland Security and Preparedness
  approval. The spending plans were not submitted in a timely manner because
  Executive Committee members have many collateral responsibilities, and at times
  it is difficult for them to attend meetings, which delays the submission of their
  spending plans.



   The State of New Jersey’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 13

  Recommendation
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the Director of the New Jersey Office of Homeland
           Security and Preparedness to:

           Recommendation #9: Assess the current processes and procedures
           involved with the execution of Urban Areas Security Initiative subgrantee
           awards to identify efficiencies to expedite expenditures.

  Management Comments and OIG Analysis
           FEMA concurred with recommendation 9. FEMA said that within 90
           days of the receipt of the final report via the grant notification letter, the
           Director of the New Jersey Office of Homeland Security and Preparedness
           is required to assess the current processes and procedures involved with
           the execution of Urban Areas Security Initiative subgrantee awards to
           identify efficiencies and expedite expenditures.

           State officials said that the Office of Homeland Security and Preparedness
           will amend the Urban Areas Security Initiative Charter to reflect the 45­
           day requirement. This office will implement this change via a formal
           letter from the Director of the Office of Homeland Security and
           Preparedness to the Chair of the Urban Areas Security Initiative Executive
           Committee. The Office of Homeland Security and Preparedness will
           require that the detailed spending plans with budget annexes be submitted
           to its Grant and Program Management Bureau for the entire 80% local
           share of Urban Areas Security Initiative pass-through funds within 30 days
           of the official DHS award notice. Local shares that are not dedicated to a
           project with sufficient information in the spending plan will be
           reprogrammed by the Office of Homeland Security and Preparedness
           within the 45-day allowable timeframe.

           The actions proposed by FEMA and the State of New Jersey are
           responsive to the recommendation. If properly implemented, the actions
           identified in the responses should address the conditions identified during
           the audit. This recommendation is considered resolved and open pending
           FEMA notification and review of the Director of the Office of Homeland
           Security and Preparedness assessment to identify efficiencies and expedite
           expenditures.




   The State of New Jersey’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 14

Untimely Expenditure of Grant Funds
      Subgrantees did not always initiate projects in a timely manner, and as a result,
      State Homeland Security Program and Urban Areas Security Initiative grant funds
      were not expended within the grant performance period. Consequently, first
      responders were less likely to be as equipped, trained, and prepared as possible.

      FEMA Information Bulletin No. 257, dated July 17, 2007, recognized that
      subgrantees face various obstacles in completing the projects, but that it was
      important to ensure that funds were obligated and expended in a timely manner
      and within established periods of performance. In addition, FEMA’s FY 2008
      and 2009 Homeland Security Grant Program guidance strongly encouraged the
      timely obligation of funds from local units of government to other subgrantees.
      The period of performance for the Homeland Security Grant Program is 36
      months from the date of award. FEMA will deobligate any unobligated funds at
      the end of this period. Extensions to the period of performance will be considered
      on a case-by-case basis only through formal written requests to FEMA with a
      thorough justification that includes detailed reasons for the request (e.g.,
      equipment vendor delays, lengthy procurement processes) and demonstrates a
      clear need for an extension.

      A New Jersey financial system report showed that 38% of the FY 2007 State
      Homeland Security Program and Urban Areas Security Initiative grant funds
      awarded to subgrantees had not been drawn down as of March 13, 2011, as shown
      in table 3.

      Table 3. New Jersey State Homeland Security Program and 

      Urban Areas Security Initiative Awards and Expenditures (FYs 2007–2009) 

                         New Jersey State Homeland Security Program and
                     Urban Areas Security Initiative Awards and Expenditures
                                       as of March 13, 2011
                                            ($ millions)
        Grant      Date of         Total             Total        Balance    Percentage
        Year       Award         Awarded           Expended                   Unspent
         2007       8/13/07      $ 50,170,000        $ 31,230,930   $ 18,939,070       38%
         2008       8/25/08      $ 62,768,000        $ 27,646,292   $ 35,121,708       56%
         2009       8/21/09      $ 60,845,150        $ 7,414,838    $ 53,430,312       88%


      The Office of Homeland Security and Preparedness requested and FEMA
      approved two extensions of the FY 2007 Homeland Security Grant Program grant
      performance period. The latest approval was granted on December 8, 2010. In
      seeking the latest approval, the Office of Homeland Security and Preparedness
      reported that the unobligated funds were comprised of: (1) state share funds
      awaiting issuance of equipment purchase orders; (2) local share encumbered
      amounts that the State’s financial system is not able to track; and (3) state agency

       The State of New Jersey’s Management of State Homeland Security Program and 

    Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                          Page 15

  planning-level salary and employee benefits, which are technically unable to be
  encumbered on the state’s accounting system.

  The Office of Homeland Security and Preparedness had instructed FY 2007
  Homeland Security Grant Program subgrantees to obligate their funding by
  December 31, 2010, with the payment to vendors/contractors, and reimbursement
  requests sent to the Office of Homeland Security and Preparedness by June 30,
  2011. The Office of Homeland Security and Preparedness plans to closely
  monitor and assess each subgrantee’s financial performance and initiate closeout
  procedures for any project funding that has not met acceptable standards in terms
  of obligation timelines.

  During our fieldwork, subgrantees offered several explanations to why grant
  funds are not spent in a timely manner. These included excessive administrative
  burdens, inadequate staffing, and waiting until multiple invoices are paid before
  requesting reimbursement.

  Office of Homeland Security and Preparedness officials reported that on January
  12, 2010, they instituted a “Smart Grant Budgeting” approach during the FY 2010
  Homeland Security Grant Program application process to improve program
  management of State Homeland Security Program and Urban Areas Security
  Initiative funding. When significant unexpended project balances are continually
  carried forward transcending concurrent fiscal years, the Office of Homeland
  Security and Preparedness has implemented two scenarios:

  1.	      Sustainment and Continuation Projects – If an implementing subgrantee
           has not expended and/or legally obligated more than 55% of its prior State
           Homeland Security Program and Urban Areas Security Initiative subgrant
           award allocation, and does not have a strong compelling written
           justification, a project will not be approved to be in any FY 2010
           investment justification.

  2.	      New Projects and Initiatives – If an implementing subgrantee has not
           expended and/or legally obligated more than 55% of its prior State
           Homeland Security Program and Urban Areas Security Initiative subgrant
           award allocation or provided assurances that its percentage shortfall will be
           expended within the next 6 months, and absent a strong compelling written
           justification, a project will not be approved as a FY 2010 investment
           justification.

  Although the State of New Jersey has taken action to improve the timeliness of
  expenditures, delays in expenditures of grant funds may continue to impede state
  and subgrantees’ opportunities to enhance preparedness and response capabilities.
  Such delays also lead to extensions in the grant performance timeframe and delays
  in officially closing the grant. Accounting and reporting requirements continue as

   The State of New Jersey’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 16

  long as the grant remains open, which becomes an additional burden on Grants
  Administration staff.

  Recommendation
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the Director of the New Jersey Office of Homeland
           Security and Preparedness to:

           Recommendation #10: Assess the current process and identify ways to
           improve the performance of subgrantees in meeting established grant
           performance periods.

  Management Comments and OIG Analysis
           FEMA concurred with recommendation 10. FEMA said that within 90
           days of receipt of the final report via the grant notification letter, the
           Director of the New Jersey Office of Homeland Security and Preparedness
           is required to assess the current process and identify ways to improve the
           performance of subgrantees in meeting established grant performance
           periods.

           State officials said that over the past several years, New Jersey has
           implemented several administrative solutions to accelerate the “spend­
           down” rate of its Homeland Security Grant Program subgrantees. These
           steps include the following actions:

                   A bimonthly grant status letter is mailed to the Chief Executive
                   Officer/Administrator and copies to the county staff.

                   The Office of Homeland Security and Preparedness has identified
                   state agencies that will procure on the behalf of local or state
                   subgrantees.

                   The grant cycle planning process has been moved up to August
                   rather than waiting until the release of the Homeland Security
                   Grant Program Guidance and Application Kit.

                   The Office of Homeland Security and Preparedness reviews
                   prospective subgrantees’ spending history in terms of overall
                   percentage of items/services ordered as it relates to a specific
                   project prior to making a new award. If the rate is low, new funds
                   are not awarded to the subgrantee.



   The State of New Jersey’s Management of State Homeland Security Program and

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 17

                       The Office of Homeland Security and Preparedness has informed
                       subgrantees that starting with FY 2009, any dollars not ordered by
                       the end of the original period of performance may be
                       reprogrammed. Subgrantees have been advised that they should
                       not expect the Office of Homeland Security and Preparedness to
                       seek extensions beyond the original period of performance.

               State officials also said that even before being made aware of the OIG
               audit, the Office of Homeland Security and Preparedness established a
               policy that requires all subgrantees to obligate originally awarded grant
               dollars within the original period of performance. The Office of
               Homeland Security and Preparedness will seek an extension beyond the
               original period of performance for subgrantees only when the subgrantee’s
               request for such an extension is justified on circumstances well beyond its
               control or situations that the subgrantee could not have foreseen.

               The actions proposed by FEMA and the State of New Jersey are
               responsive to the recommendation. If properly implemented, the actions
               identified in the responses should address the conditions identified during
               the audit. This recommendation is considered resolved and open pending
               FEMA notification and subsequent review of the Director of the Office of
               Homeland Security and Preparedness assessment to improve the
               performance of subgrantees in meeting established grant performance
               periods.

Noncompliance With Grant Inventory Requirements
      Subgrantees did not always maintain inventory records in accordance with federal
      requirements nor comply with property record requirements. As a result, the State
      cannot ensure that assets procured with federal funds are adequately safeguarded
      to prevent loss, damage, or theft.

      Code of Federal Regulations Title 44 §13.32(d), Management requirements,
      establishes procedures for managing equipment (including replacement
      equipment), whether acquired in whole or in part with grant funds, and includes
      the following minimum requirements:

               Property records must be maintained and include the property’s cost,
               description, identification number, location, use, condition, and ultimate
               disposition.

               A physical inventory of the property must be taken and the results
               reconciled with the property records at least every 2 years.



       The State of New Jersey’s Management of State Homeland Security Program and

    Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                          Page 18

           A control system must be developed to ensure adequate safeguards to
           prevent loss, damage, or theft of the property. Any loss, damage, or theft
           shall be investigated.

  Inventory records at the local subgrantees (10 counties, 2 cities) we visited either
  did not exist or did not contain all required information, such as the property’s
  cost, description, identification number, location, use, and condition. At some
  sites, identifying the location of Homeland Security Grant Program assets
  depended on staff recollection of purchasing details. Furthermore, only 1 of the
  12 subgrantees could demonstrate that it conducted a physical inventory every 2
  years. We determined through discussions with local subgrantee personnel that
  they were not aware of the federal property management requirements, despite the
  requirements’ inclusion in the terms of the subgrantee contracts with FEMA and
  the State. Although 10 of the 12 local subgrantees had inventory controls, their
  efforts were ad hoc and not systematically tied to the federal requirements.

  We also found that subgrantees did not always mark equipment purchased with
  Homeland Security Grant Program funds. Only 2 of the 12 local subgrantees
  visited marked equipment as being purchased with Homeland Security Grant
  Program funds. The FEMA grant agreement requires grant recipients, when
  practicable, to prominently mark any equipment purchased with grant funding
  with the statement “Purchased with funds provided by the U.S. Department of
  Homeland Security.”

  Recommendation
           We recommend that the Assistant Administrator, Grant Programs
           Directorate, require the Director of the New Jersey Office of Homeland
           Security and Preparedness to:

           Recommendation #11: Ensure that subgrantees maintain property and
           inventory records to support both the retention and transfer of equipment
           to subrecipients, implement procedures to identify equipment purchased
           with Homeland Security Grant Program funds, and conduct physical
           inventories at least every 2 years to ensure compliance with federal
           requirements.

  Management Comments and OIG Analysis
           FEMA concurred with recommendation 11. FEMA said that within 90
           days of receipt of the final report via the grant notification letter, the
           Director of the New Jersey Office of Homeland Security and Preparedness
           is required to develop and fully implement a monitoring program to be
           compliant with Code of Federal Regulations Title 44 § 13.40 (a),
           Monitoring by grantee. As part of the monitoring process, New Jersey

   The State of New Jersey’s Management of State Homeland Security Program and

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 19

               will ensure that subgrantees maintain property and inventory records to
               support both the retention and transfer of equipment to subrecipients,
               implement procedures to identify equipment purchased with Homeland
               Security Grant Program funds, and conduct physical inventories to ensure
               compliance with federal requirements.

               State officials said the Office of Homeland Security and Preparedness has
               amended the grant agreement to include language that clearly requires
               subgrantees to be able to identify equipment purchased with Homeland
               Security Grant Program funds. In addition, all subgrantees will be
               required to conduct a physical inventory every 2 years.

               The actions proposed by FEMA and the State of New Jersey are
               responsive to the recommendation. If properly implemented, the actions
               identified in the responses should address the conditions identified during
               the audit. This recommendation is considered resolved and open pending
               FEMA notification and verification that the Director of the Office of
               Homeland Security and Preparedness has developed a monitoring program
               that is in compliance with federal requirements.

Best Practice: State of New Jersey’s Grant Tracking System
      The Office of Homeland Security and Preparedness employs an electronic
      database, Grant Tracking System, to capture and track each subgrantee’s state-
      approved Homeland Security Grant Program–funded projects. The Grant
      Tracking System is the State’s primary oversight mechanism to track the progress
      of each county, city, and state agency toward completing or procuring their
      budgeted projects or equipment.

      For a given grant cycle, corresponding with a fiscal year, each subgrantee
      develops spending plans encompassing its proposed purchases or projects, which
      are submitted to the Office of Homeland Security and Preparedness for final
      approval. Once the office approves the subgrantee’s plans, the state issues an
      award letter indicating its formal promise to reimburse the subgrantee up to the
      amount of the award for projects and equipment budgeted on the spending plan.
      Upon receipt of their award, counties and cities have a specific amount of time to
      enter records into the Grant Tracking System for all approved projects and
      equipment. As subgrantees generate purchase orders and invoices demonstrating
      the completion or procurement of previously budgeted projects or equipment,
      copies of the documentation are uploaded into the Grant Tracking System, at
      which point the Office of Homeland Security and Preparedness can review the
      documentation and count the related expenditures as progress toward completing
      the given grant cycle.



       The State of New Jersey’s Management of State Homeland Security Program and 

    Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                          Page 20

  Office of Homeland Security and Preparedness officials indicated that they would
  provide the Grant Tracking System source code at no cost to any organization
  interested in using the system to assist their administration of federal Homeland
  Security Grant Program funds.




   The State of New Jersey’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 21

Appendix A
Purpose, Scope, and Methodology

                      The purpose of the audit was to determine whether the State of New
                      Jersey distributed and spent State Homeland Security Program and Urban
                      Areas Security Initiative grant funds (1) effectively and efficiently and (2)
                      in compliance with applicable federal laws and regulations and DHS
                      guidelines. We were to also address the extent to which grant funds
                      enhanced the State of New Jersey’s ability to prevent, prepare for, protect
                      against, and respond to natural disasters, acts of terrorism, and other man-
                      made disasters.

                      The scope of this audit included the plans developed by the State to
                      improve preparedness and all-hazards response, the goals set within those
                      plans, the measurement of progress toward the goals, and the assessments
                      of performance improvement that result from this activity. Further, the
                      scope included an assessment of these activities within the context of risk
                      to determine whether the State’s plans produced strategic performance
                      improvements related to the areas of highest risk, rather than merely
                      producing improvements in a broader sense.

                      Together, the entire Homeland Security Grant Program and its five
                      interrelated grant programs fund a range of preparedness activities,
                      including planning, organization, equipment purchase, training, exercises,
                      and management and administration costs. Because of the
                      interrelationship of these grant programs, all were considered when
                      evaluating the planning cycle and the effectiveness of the overall grant
                      program. However, only State Homeland Security Program and Urban
                      Areas Security Initiative funding, equipment, and supported programs
                      were reviewed for compliance.

                      The scope of the audit included the State Homeland Security Program and
                      Urban Areas Security Initiative grant awards for FYs 2007, 2008, and
                      2009, as shown in the following table:




              The State of New Jersey’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                 Page 22

Appendix A
Purpose, Scope, and Methodology

                                                   State of New Jersey
                                         Homeland Security Grant Program Awards

                        Funded Activity       FY 2007         FY 2008        FY 2009           Total

                       State Homeland
                                             $ 14,100,000 $ 27,780,000 $ 25,547,000 $ 67,427,000
                       Security Program
                       Urban Areas
                                               36,070,000     34,988,000     35,298,150     106,356,150
                       Security Initiative

                              Total          $ 50,170,000 $ 62,768,000 $ 60,845,150 $ 173,783,150

                       Law Enforcement
                       Terrorism
                                               10,060,000       N/A             N/A           10,060,000
                       Prevention
                       Program
                       Citizen Corps
                                                  362,216        359,560        357,481        1,079,257
                       Program
                       Metropolitan
                       Medical Response           516,290        642,442        642,442        1,801,174
                       System Program

                          Grand Total        $ 61,108,506 $ 63,770,002 $ 61,845,073 $ 186,723,581


                      The audit methodology included work at FEMA headquarters, State of
                      New Jersey offices, urban areas that received grants, and various
                      subgrantee locations. To achieve our audit objective, we analyzed data,
                      reviewed documentation, and interviewed key state and local officials
                      directly involved in the management and administration of New Jersey’s
                      Homeland Security Grant Programs.

                      In accordance with the audit guide, auditors chose to visit the designated
                      State Administrative Agency, Office of Homeland Security and
                      Preparedness, and the following 18 subgrantees that had been awarded
                      funding in FYs 2007, 2008, and 2009.

                       State Agencies
                          Office of Attorney General                   Division of New Jersey
                          Office of Information                        State Police
                          Technology                                   Department of Health and
                          Department of Education                      Senior Services

                       State University
                          University of Medicine and Dentistry of New Jersey

                       Cities
                           City of Jersey City                         City of Newark


              The State of New Jersey’s Management of State Homeland Security Program and

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                 Page 23

Appendix A
Purpose, Scope, and Methodology

                       Counties
                          Cape May County                              Ocean County 

                          Cumberland County 
                          Salem County 

                          Hudson County 
                              Somerset County 

                          Mercer County 
                              Union County 

                          Monmouth County 
                            Warren County

                      At each location, we interviewed responsible officials, reviewed
                      documentation supporting state and subgrantee management of grant
                      funds, and physically inspected selected equipment procured with the
                      grant funds. We also held discussions with officials awarded Urban Areas
                      Security Initiative Grant funds to determine whether the funds were
                      expended according to grant requirements and priorities established by the
                      State of New Jersey.

                      We conducted this performance audit between October 2010 and April
                      2011, pursuant to the Inspector General Act of 1978, as amended, and
                      according to generally accepted government auditing standards. Those
                      standards require that we plan and perform the audit to obtain sufficient,
                      appropriate evidence to provide a reasonable basis for our findings and
                      conclusions based upon our audit objectives. We believe that the evidence
                      obtained provides a reasonable basis for our findings and conclusions
                      based upon our audit objectives.




              The State of New Jersey’s Management of State Homeland Security Program and

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                 Page 24

Appendix B
FEMA Management Comments to the Draft Report



                                                                                               u,' , "'0......, .. ,...... .. """"
                                                                                               ,(" C , , ~, ,"'
                                                                                               w.c-.-_. OC"'''



                                                       AUG - 9 lBIl


                                           Anf';; L. R;c."" ~h
                                           A" j,u...-.: 1"'1""'0< C"C1l<"l lirr A ,~h"
                                           OffICo of 1"-,1""-"" On,..,,;

        f RO.'A:
                                            I-M---        <L . :'B~              1 ';'''''-
                                           D.', ;d 1. yuk"",
                                           Di",,;w
                                           Ot)"" "rp" ,;"y "'" P,,'!>'<r.l A.:oJ,,;.,
        <;P Ill[CT                         CO"""""" to 0 [0 lJ.. 'l R'1" r\, i ~,' S ,".',-' ~I ~''"~      J",'<, :.
                                           Man"",,,,,"· c{S,Oic 110,= I", d S.xwi'>' 1'",;;,"", ~,,{ (;,k"
                                           A, '"' .'..~,,~'C}-' h'iari,,' Ci,-an" A"~I d,d DuN".- Fi.=! y"",
                                           ! (I() ?   '.""'1(" 21m
       11".01'_, }U" fe, d ,. '?<",,",,"ty to conu ",,," "" ,i", draft    rt,""  n,,, ftnj Lr.!" 'n ,c.e re P'J '-. will ""
       ",,,I to Itrc;'id-J-e" ·.he ,ff",,;,'c."""_ ",.I d" ,i ",-,y ot' !>J ~ "" "" 0<>0 ........ m<"".-c 0''''
       P"'lPlJI:>. W. ""<'g:Ji,c til< n,.;,l ,,, ,u ';n ", 10 irr-l""ve ,I>; ,,'C'''', i ""h", j~ ,1Id'",'i";: tx
       =""".r.,i.." " i!o<:<l ia thi' "po:!,       (ju,       ''';>01'''' ,!.,
                                                                     to     rc"'"" """,""i"", ",e '"' Ii , ...""

       O'G ~",om""ntLoli"a 1rI : ""0 "',",mnl<'TlJ ~\"- (it. "--',"'Ont Adm",i""" ,"" G.'a>" PTI '~""",
                                                                                                                   .-w....,'"
       r~TI-"':;"'to ... ,i.It tho Dirc-..~, .- ,,'- ,h, N<w J",,,,! ()1I ;c~ ofHo<oo,,",,1 Se< ,on'Y , ,, d ?,,'I' ...
       ;" cm:l(>f'iO&' "'[''Pd.em;,'.        [""1" ,.\1,.-",   ""," "=-r.m 'YO'"'" ,ho i "," '"""I y '"","I« h
       l'roi'," ~', ",,,,,11 PodOl""',," ,,, (I I=~" " ,<)" ,,<1 ,,,"\:rJ "-'i,,~ PI'-p"",d""" ~ , rumlt of,,-,
       Hom"I",,] Se<',cri'Y UJ.", r~ ' ","m ,

       0[(; 1{""mmendotJoa ~l, W" ""'''''''''''""              'f."
                                                                tl'.< ,~ ." "'''"' M'~", i ~"",,, Or,," T'H'<7'no,
       Di,<c',w"", , ,, i<t ,he Di"c,", of 'he );'w )oc"." u n;" "f fj",,,,,I,, oI Sea" ,.,. '-1'..1 l'T''P'-~ ,d"""
       io ~,~'oI"r"'.g, c""'J'l<,r.emivo ,,.,,.:; ,,m ",,,,,, ='"""""" ' l"'''''' Ll .. , im~:"",,,,,, ",01 m'-~"
       'i"'C,fio ~,il"[O,,.., tilt ,",hicvjl\~ I""'>""'" tQw>rd ''''5''' c"p"bili'y ~".-" " '''nt WI':' "tl:< ""-".
       U~ Arc"," h"""" Y' T";~j"ivc u '", "b-'ion.U. "';.! ,,,' , '!"JlC)' k~c: •.

       H."lA K"I"'""" to R<colUm<nd.';on tl & 2· FH1,\
       'l ,
                                                                           C""'''-''' with R<,,'nnr.mj''''"'''1 '"

       10 , ,"";0,,.1 P""!,,,,,6,,,. D:,<ccOf"" (KPfl), tl:c 1'",-'=1 (Jllcr~c""y'            ""."..,geo1:,,"
                                                                                                   A~""r
       \ Fh..\i~) .,oj,},""f'Ot"I"'"',,
                                      for dcv'I""ir~ ,.."",'c4",-, )l'--norm",,,,, """"H""", ' Y""lI!. i.
       " "'ing 0:", IlJid",,,. em;! ,~:c t"f'" '''I''''HIy ....,""',,' ~.>l.« U" '''''. :-eg;o",L ",.c <II","
       O:Cl I,v" " hich " e 'di,'p;c,cd fot " ]e,,,, in l,co ,O i l ;, "c,":lfICe "fth< r y 2m ~ lio.1l <i.,,1
       &<;"".(, Goo ", I'ro;e." (Il SGP) "I'pl;",oj, 0),, 10, n, 1~ln ,,, 0""" Oi,',,,o" (!'GO)




                The State of New Jersey’s Management of State Homeland Security Program and 

             Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                                      Page 25

Appendix B
FEMA Management Comments to the Draft Report




       ,..;thin FEMA' . Gnnt Proll=l' Dircctorntc (GPD) "';11 !<Gui", the DireclO< of the N"",' ,,,"'~
       Offico: of Hem.b oo S.curity.n<! Pr'l'orodn<:" 10 " "",ly Witil mi"od         ~in.. dov. lopod       bl
       'rn.
       FEMA beJi"""lhi' OO<i,lie; ,l>e in""" of Ihe """",me.a..i"" IiIld ""lUC'" thot!hi.
       I'<'~tion be ... olvod md opM p<ndinc imp/""""'"ti"" of tho ....'ed "",,"octho actions.


       OIG R<,~...... "dati"ft #3, Wo     ,,,,,,,,,,,,.......:1
                                                          th.. th" A.<o;"unl Admini_'"... Or""" Pro~
       Dir<ClO<;o(e. '"","I'< the0;""""      orthe N,,,, Je.:,.,y Olr"," ofH<>m<lon<l S,curily ond
       Po:opO\"'Jox", eo 'lcoogth,n ond 1<he<Iul. lIS        "".;i"
                                                                  nI(ln;'oon~ """viti,, tbrougbJu! tl>e ~t
       palorrmmco poriod 10""""",      ,""gr,,,,,,"  ~i= with f<>derol rO'l"ir"""",'. , ioclud~
           • full.oo oj>«l rompetltion fur procur.ment oction,
              Olltoininc wriHen 'pp<DYol from Off.,. ofHoill.I.oo S"urity .. ><1 Prepao-,dn.. , j ...... '"
              .,.",diIljl ,ol . · ~ contr", ><OCUr«Iloru.
               Enourilll: that vrl>i<:1c> arc ""cd >Oicly for tOcir _horizc<l purjlO><,
               Foil o";"g TO..,.u "'"'"'i<:m ""I"""""'''      ond p'"l""l Ym.i~toi"in~  ,,,,,,rdo,

       Within 9tJ ,I.}~ oftho "",,,pi of ,.., fin" ",!"wl vi. ,.., g."n"'" ""tifi<.ti"" 10""', the Dir<>eloc of
       tho Now J,,,,cy Offi<,e ofHomcLond Security.oo P~"" i, "","rOO to devclop ond fully
       impl<m"". monitoriIlll pro~n"" to ho oompli.", with 44 C1'R ! 13.-40 (.) )'\onitorin! by
       Gron"e, To be incloo. d in !hi. mooitoriIlll proll'lIlIl, i. the re<]uirom<r.1 ,ob· grant"" lllOllit<rio&
       '"'"'". fun and op<1l compodtion for ],<OCurelll<ll' ":rio",,         ,t."
                                                                              10k I()• • cce rul .. :md
       " gIli"ioo< are adherod to; vehicl", ore uood IOldy fur their . utllorized p"'p",e; ITcord rotontioo
       nqui""""'''   are m«,.... record, properly maitltlli .. d.

       FEMA bo!io"", lhi. '0\;"1". UI< i,,,,,,,t "(the I'<comm .. >OOtl"" .00 requeoto that thi.
       rccommcn<lotioo be "' lOl~od Xld op<n ".".Jilll! implem",t.ti<m of the ""te<\ comctiye "'ti""~

       om R.oooo.""" .... o ... ,      w. <=Onvu<nd that tho A,."t"", Admioi,"otoc, 0...", rro""om.
       Thr. CIorote, requi •• the DireclOr of the New JClIcy Office of Homdmd Socurity and
                        ,.tu,n
       l'r<pote<1!le .. to       to FEMA tho $l,~OO,OOJ that OIl UrbM AI", &oc\ri'y lniti>!iv< Office of
       H"""",,,d S""ill'i'y:rnd P''I'ared"", .ub-~onteo poiO to • Gmoral Servic .. Admiuirtnotioo
       wntroctor ."fore 1IOOO, .. >d ,ervices were fully renderod.



        Upon i<:orrWIljI of tn;, OIG findilll!, FEldAIGI'U _ t        r""".1 ~dence to Ne~' '''''' y
       ICGuc. tlnj: the Sl,5OO,000 be """""'" on Feb<"",y 14, 201 I New ''''''y r«urnod Ihe fuOOinj; to
       FEMAiGPD on Mlr<h 31, 2011.

       FEMA bell ....... thi> "",iii", tho in!"'" (Of th< """"""""",,l;'m , nil "q""''' lloot lloi,
       recommendation be resolv. d ond clo:Ic<l,




               The State of New Jersey’s Management of State Homeland Security Program and 

            Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                                  Page 26

                                                                                                   0                                                                         •    z~."oo
                                                                                                                                                                                                                                            Appendix B




                                                                                                                               nl~~                    ~
                                                                                                                                                   ,'U':. ]   c
                                                                                                   " I,
                                                                                                        .,"
                                                                                                            ~        ~
                                                                                                              H t~l~i;'
                                                                                                                   . >
                                                                                                                                                II
                                                                                                                                                ',
                                                                                                                                                     ~il<l-:~~-

                                                                                                                                                     !i;   ~.
                                                                                                                                                              '    H"      ~
                                                                                                                                                              ~~ 2-~~ . , · ,
                                                                                                                                                                Q       -.
                                                                                                                                                                              !~ • iiI ?
                                                                                                                                                                             !>       I!.[;; •       I            1;~
                                                                                                                                                                                                                          •
                                                                                                         ,0,       ".0                                                                                 ,,",   ~
                                                                                                          >'i                             h! l " • if diO .> !, •~ .§. ~ "~                        l
                                                                                                                               -?i:d~
                                                                                                              ". l' l!::a·:;~
                                                                                                                                          1 S,f8.J,ll •
                                                                                                                                                     a~
                                                                                                                                                                               d' ,•• hi
                                                                                                                           ,        g
                                                                                                                                     h            s-   :a, ~  fBi.                i!:.",   ~ ~ ~
                                                                                                         ,n:0
                                                                                                   •          ~~ , ~ ~ i <r - §' ~ g; ~ ~ ,                                                                           ~                 ~
                                                                                                   I•                                                                    ~~ Hg. , $',,<g ~'
                                                                                                   !      " ,            ~ ~ " ~ H-                                      H
                                                                                                                                                                         .>
                                                                                                   ;
                                                                                                              ~f • hi?!                                            ~~-3:
                                                                                                                                                                ~ ~~                                                          i!~9
                                                                                                                                            iaHQ" !• iqH,
                                                                                                                                        ~
                                                                                                                                                                                  -        0!i; 0
                                                                                                          i~ i0'Of ,i ""~. i~ ~ :;'~ H ~r.~[~ ~iS'fi~ H' ,"! ,,!• "3' oj
                                                                                                          i~ o' •               ~   -
                                                                                                                                     H  0   ~
                                                                                                   ,",
                                                                                                                                                                                                       ~
                                                                                                                    •                       £ " ~ oil !
                                                                                                                                                                         P:l: ' 1 • 1:t~
                                                                                                   ,,     "i"            no::!'                      ~ ""  •  "_!S'           H     •    a if                                 ll:
                                                                                                              ~3                     "toI i~~·';; §'~ ~       ~ ~-:>-;;' '"    iii""l                                     ,
                                                                                                         ' :l,"'     i·• o ,.! .,
                                                                                                                                                                                                                                        ~
                                                                                                                                                                         lt~ ~! • 1',
                                                                                                                                                              z. ~ i ~       •
                                                                                                                                                           ~  ~
                                                                                                                                                           ,,~-.        0
                                                                                                                                                                               ", • ,,"' c
                                                                                                                                                           '<~':!I",~
                                                                                                   ,,i .' H        "0
                                                                                                            , "•• ~,~ !H'" [ i'"" lio"' ••~ ~-~[!~
                                                                                                                    •<
                                                                                                                     >
                                                                                                                                        !
                                                                                                                                        '.
                                                                                                                                        "         "'1l     <>       ~
                                                                                                                                                                       oS;
                                                                                                                                                                             ,        ,,
                                                                                                                                                                              ,", •~ ~U
                                                                                                                                                                                                                      >             '   0
                                                                                                   ,,         •• , H"~ i i!"-Q " gl~C~                                        l~ •
                                                                                                                                                                           i




Page 27

                                                                                                                                ~ .~,g,,-     11     R ~
                                                                                                                         ~- il" ~ ~ ~                              m       ,
                                                                                                                                                 0                                    q    ~   0   "
                                                                                                                   l,
                                                                                                                   , --1
                                                                                                               I                                                                                                      '
                                                                                                                                                                                                                                            FEMA Management Comments to the Draft Report




                                                                                                   !        I ' . ~
                                                                                                              I·: ~..~ :a , ~';"~~ ~ !,, 1 ,, ·~ ~, !, 1","'.~
                                                                                                                           >                                                 >
                                                                                                            ! f~         ~fP                ~"'~~~           j~ '"1'"'
                                                                                                                     ,          B. !lf~                            ~~~ ! § ~ • .l                                         •
                                                                                                     f ; L"
                                                                                                                                ~   '" "" ~.                        !,   '.
                                                                                                                                                                         .,
                                                                                                                                                                         .,       ~l!                                               .!
                                                                                                                                :f~     '" ~
                                                                                                     • ,i . ,
                                                                                                     §
                                                                                                                                                 •t I it!! ,•          t
                                                                                                   ."     '1                    ~ [ ~ -.~        [
                                                                                                                                                                 i
                                                                                                                                                           'p . t F'j'
                                                                                                                                                           l\~if~', 5  -i ~ .~                                !   ·
                                                                                                                                                                                                                             ,0
                                                                                                          i,                      -, "                               !
                                                                                                                                                                     ,
                                                                                                                                                                           , ! ..                                            '"
                                                                                                                                                                                                                          ,, "!
                                                                                                                                                 ~                     ~!Hi                                   ~
                                                                                                    !, ! ",.   •
                                                                                                                   q
                                                                                                                     ~
                                                                                                                           I, roo
                                                                                                                           ~
                                                                                                                                    H'                     !,[1·
                                                                                                                                                           e
                                                                                                                                                             ,. ,.'•
                                                                                                                                                           i' -
                                                                                                                                                                     •
                                                                                                                                                                    1'. ~2
                                                                                                                                                                       --
                                                                                                                                                                             e                                             • H
                                                                                                                                                           ':?, ~       ~
                                                                                                                                                                                      ,.d I, "'I, •                                 t
                                                                                                                                {!
                                                                                                                                01 !'
                                                                                                   t               $~           :;, ;
                                                                                                                                                                ' r·                     ,                                          "




              The State of New Jersey’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                                                                                                                                            ~ ~ .J !:l 9                                        .;
                                                                                                                                                                                                                                                                      Appendix B




                                                                                                                                 -~"'''                     l~     "0                                 ..          " .. •0 ..... i-0~                             ,-
                                                                                                                 •                                             ~ Ja",           i~                              ~ ~ ~-                                           •
                                                                                                   s-        - ~       §.~       ~             ~:!:         if ~ ~ 8                                            ' _8      j'r"3::;'§-j
                                                                                                                                                            ~ ~ ~.          ~
                                                                                                   i I ~ I ~ tlH •
                                                                                                                                               ~  h       jlfnr                                                 "~ iI" ,
                                                                                                                                                                        ~ ~
                                                                                                   T' !l-j e- ,,•
                                                                                                   r,i '      g
                                                                                                       - ~ ~. ~    n     ·
                                                                                                                         ~ ~  "o~
                                                                                                                                     ,
                                                                                                                                     •
                                                                                                                                          e            ,
                                                                                                                                                  12-2':
                                                                                                                                                            - W
                                                                                                                                                          *~ .~,g[              ~'~
                                                                                                                                                                                -
                                                                                                                                                                          " ~ illU,                             g~
                                                                                                                                                                                                                .     •• ••
                                                                                                                                                                                                                          0
                                                                                                   '" ~ ~ Co       i~ ii a~:f        , ~d~                .   ,   <!
                                                                                                    o ~ :f~                                                   "'~S':1   ~1!l~ , !'::,::s ~-*~'                                          ~ ~
                                                                                                                                                                                                                                    ,,-'<l    ~   =-~
                                                                                                                                                                                                                                                  -'~
                                                                                                    )! ~o~ t               [l'
                                                                                                                                            "                       ~       ~
                                                                                                   .,;       ~- ~                      iJ.W"9;                                        ~ a ~
                                                                                                                                                                                                                <l ::.    ~-
                                                                                                                   "                               Ii·    i i ~ g.I~:__ 8.~ ~ r• 1~~:?, ~ .g9
                                                                                                                   •• H     .. ~~ • -
                                                                                                                         ~ is'-6-        'II
                                                                                                                                       •. !                                     ~W
                                                                                                    [H       u '"        ,[                                 '.;i ~      , I'~         ~- . ~
                                                                                                                                                                                  :::~ d.'p<T.a
                                                                                                                                                                                  ..                 ~~"         ~ <!.    >:,             ~ s
                                                                                                                   ;~                                                                      ~     0   ~ ~
                                                                                                                   "   o
                                                                                                                                     !         .. iif
                                                                                                                                                       -      "- s,                   ~
                                                                                                                                                                        iU- l• ; ,~~[H""                   ~
                                                                                                                                 . "S' W           ,,-!l.
                                                                                                   " ~ ~ ~ ! ~ ! H[ •••. ~ ~ s, ~ ..,
                                                                                                                                       _a z       •    •  ttl     ~~ !fW'"  ~
                                                                                                                                                                        i5'~i. i•
                                                                                                                                                                                  l §. $.!rs~ ~
                                                                                                                                                   "-
                                                                                                                                                  "'        -.    i l:                                           ~ ,,-~             51
                                                                                                    '1 ~, L q;~q-~ ;•• ~hi                                    115~"..
                                                                                                                   U· .,                                                       •      ""si ~ ~ ';1               ~'''''                           ."'~
                                                                                                                           <l                                           ~
                                                                                                   h!
                                                                                                   n         .~
                                                                                                                 l_
                                                                                                                   '"  & · "         • •
                                                                                                                                       " , -i ,
                                                                                                                                       " .'
                                                                                                                                                   ,
                                                                                                                                                  Ii              I;,        , •  ili
                                                                                                                                                                                 .m        ~~ 8. ;r
                                                                                                                                                                                           0
                                                                                                                                                                                                                'fl   ~~            "-'< !!.; -
                                                                                                                                                                                                                                    '§~'eO,, ;" ,<
                                                                                                                                                                                                                                                  ;;>    ~
                                                                                                                                                        >     ;     _ 0                          '   .,
                                                                                                             ~
                                                                                                                                               .
                                                                                                                                               if H 1 "- 1\ "
                                                                                                                                                               e·
                                                                                                                                                                                  a",,". :<- 3I'fo
                                                                                                   ,1,,,,,t ' if~ <· ,, ;-~ ~~- ~ aI'                                     Ii
                                                                                                                                                                        a;..
                                                                                                   ~ ~ ~ ~               "I'     ~        ~    ~
                                                                                                                                                          ~j  ff' i~              li'                                                            Ell
                                                                                                                                                                                                                                          q.:;r~ 8
                                                                                                                                                                                      '.




Page 28

                                                                                                   ~ ~       0    ~-
                                                                                                                   H
                                                                                                                   11 g- " I ,j HU U.                               .     ~. " i '" "- -
                                                                                                                                                                          . ! I ~~g~pg,
                                                                                                                                                                                                                                                                      FEMA Management Comments to the Draft Report




                                                                                                                                  i         .: a              ~"                                                                          ~ ~
                                                                                                                                     ,             ~ ~- ! .! 'l
                                                                                                         ~        ~
                                                                                                            .i5' '       liJ                                                          ""~"     rI:   .IJ
                                                                                                                   ·
                                                                                                                   "       "     ~ ~ ,         ;,.g           @U>         '.
                                                                                                       ~p          ~~            1<g, ~ §;
                                                                                                                                                      ,   ~.~'f   S"R     '!
                                                                                                                                       £.2.~[                                         •.             <
                                                                                                                                          ~~0~'
                                                                                                        ,_0' [~ , . s,
                                                                                                                   "     i'    ",    .
                                                                                                                                     •
                                                                                                                                     " "5''''S ~   8"         ".~. ~~.
                                                                                                                                            . . • ., ~~ ;, ~ . 1:? ! !I!~d
                                                                                                                                                                               I
                                                                                                                                                                                  i:'
                                                                                                                                                                                  d·  f7
                                                                                                                                                                                       ~
                                                                                                                                                                                      ~.
                                                                                                                                                                                           a tH.
                                                                                                                                                                                           n"d~      ft
                                                                                                                                                                                                     ~
                                                                                                                                                                                                           ""
                                                                                                                                                                                                           ~
                                                                                                                                                                                                                      "'. l!-
                                                                                                                                                                                                                                •
                                                                                                         ~!i ~ O!                      5~t~                                       ~~.      ~ ~~                       .,'["                                  .
                                                                                                                   H · I'"" '             ~ '".~
                                                                                                                                                          ~I'     ~1i
                                                                                                                                                              l! It "" "
                                                                                                                                                                          "           "'~            "2
                                                                                                                                                                          '.'   ~     1l' ~
                                                                                                                                                                                • ;<i rlh            b
                                                                                                                                                                                           -d"
                                                                                                       lii
                                                                                                       ,. ., ,~. ~ !~.               t Ip'
                                                                                                                               s- 1? • "  ~.   I
                                                                                                                                                       ,
                                                                                                                                                       •    ~
                                                                                                                                                                  a
                                                                                                                                                                  ~:~.
                                                                                                                                                                                 l
                                                                                                                                                                          ~ " • l'~ .
                                                                                                                                                                                                           ~
                                                                                                         •,                "      .       ,    1       i ..               iH
                                                                                                                                                                          "                                .~
                                                                                                                                                                          "                "I                         ,   <
                                                                                                          ; I ~                !!s,                    •                    ,,
                                                                                                                                                       •




              The State of New Jersey’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                                                                                                                                                                               Appendix B




                                                                                                   '~        ~"ili"~-;'''
                                                                                                               H   '. ' -          ",    ~-.a;'I"'oO
                                                                                                                                         • ••• - .           iI"",-   ~;.S'
                                                                                                                                                                      . ... ..     '"',   ,'
                                                                                                             . a ';;I:   at>Zgo   ~
                                                                                                                             ~ ~;..
                                                                                                                                         °li'l'~
                                                                                                                                            s"         ~<O"l;~
                                                                                                                                                       ~'"   ~
                                                                                                                                                                      ~!z;.
                                                                                                                                                                      ~- "5-       ,.     '"
                                                                                                         I    lJ~!~!8 ~ ~-~II"~                              I[ 1_!8                ~
                                                                                                   l_~- '!'R,"~ ~ ~ =II"
                                                                                                   ~- ~           ~~la
                                                                                                                                         ~ 'Sg3F19 w~ 'qt~
                                                                                                                   .• ~ i~ -i~S a D'~ I~~ ~                                        i•
                                                                                                   ~t         Ili~ii~ = ~~~~a'i il ,~i~
                                                                                                   ~ l        ;:~3:d- ~ ~          ::0   ~~~~u· H                       ~P         '"
                                                                                                   ~ --
                                                                                                   <~
                                                                                                   il~
                                                                                                              &.~!
                                                                                                               &
                                                                                                              8~
                                                                                                                          ",o~
                                                                                                                         Sa ;:~_
                                                                                                                         ~, ~ ~"
                                                                                                                                   ~
                                                                                                                                   0
                                                                                                                                         '<-if;. ~
                                                                                                                                         "';':o,~~;!
                                                                                                                                   Il;,:,,~a~
                                                                                                                                                             i.~-
                                                                                                                                                             ~;
                                                                                                                                                             "" a
                                                                                                                                                                       t>:"~
                                                                                                                                                                      ~";h
                                                                                                                                                                      ~ ~S>l
                                                                                                                                                                                   :
                                                                                                                                                                                   ~
                                                                                                                                                                                   e
                                                                                                                                                                                   ~
                                                                                                   (I         ~~s!~t~                    _I~"~f l~ lil~ ~
                                                                                                   ~i   i~,tOO~~~B> ~ P"l-il~ l~ ~~~g, ~
                                                                                                   '0-.            ,,~o
                                                                                                                    .. Or-a" 10   ·0<·   0     0"                 _     -' ~       ..
                                                                                                        ~~g ~ a~-~ =
                                                                                                   1;;. "'00<'           ~~~             c
                                                                                                                                  ,~-'.il ;:                   ;.
                                                                                                        _~     '-j: ;'L"-'<~             O~'T5'~             ~.~          .., 0
                                                                                                   II
                                                                                                   ·u          • •• 'Il~.
                                                                                                              ~11i[~~~ ~ p,~,,~;; J
                                                                                                                                         1011""1                        :?Z8-
                                                                                                                                                                        'l~ I~
                                                                                                                                   §




Page 29

                                                                                                   p.
                                                                                                   _f!\,
                                                                                                              ii~'h~
                                                                                                               ~~"("")~ ~                ~.l~i~~
                                                                                                                                         ;. ~ s...,o         I         l~ i~ ~~
                                                                                                                                                                                               FEMA Management Comments to the Draft Report




                                                                                                   i'I_~-
                                                                                                   8~
                                                                                                              lh~~d ~ ~S>l~~~ ~-
                                                                                                                   ~'f ~ -~-~      ~-    ~S'~S'~>            0"
                                                                                                                                                                       sh
                                                                                                                                                                       s~-~ ~
                                                                                                                                                                              ~
                                                                                                   "'.,.      ae~;:;;]--           so    _is-a.<Co.          -.&.      0.21\- fr
                                                                                                   rii        ~ s."g.:s~_g ~ il~~ f!~~, ~l~                            ::~-~ 8'
                                                                                                   ~ ~         "'s~~~g.g-          ~     ~-!l.g.~ ~~-        "-        ~B.g- ~
                                                                                                   ~;         ~ li~i8-             S     ~ [t~~.i            i"        i-;<r       S
                                                                                                   5[1.       !!'dg-t~                   ~~s~~~              P          H~JI
                                                                                                   ~-f        ~",,~~,~-.g:r
                                                                                                                                   l~        -g.~~!I.!t      ~-~        ~->if
                                                                                                                                                                                   l~
                                                                                                   "          Il~i~li ~                                                 I~i ~
                                                                                                               "~E1J
                                                                                                   __
                                                                                                                                             I,~~ '!li i~-             ~~s
                                                                                                   8~                    ,-~
                                                                                                                           '<0                     ~    §~   ~_         ~ <>"
                                                                                                   .                          -                                                -




              The State of New Jersey’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

Appendix C
State of New Jersey Management Comments to the Draft Report




        C"""Ci~'T '                             State of New Jersey
               ,-,","'Q                    C'" .",   11~~ """ d   "" ,.; , <rd   "."_ . ~,,
                                                                                                                 C"" -.' P-.   ",C~,,_,

      ~ i TI   Goxlc7JO
                                                             P'O "',
                                                        1<HO', NJ
                                                                       >1,
                                                                    ""',,-0)<,                                       .-'" ,. ""
          ,',C""",",,,

                                                            Jl\l~13,2()ll




         ,\me L. Richud.!
         A, >iotM.! Irnpcotor Gone",1 fu- Audit>
         c.s,  D<pt>1Tn<nt OfI-I"'lOl=I ><OOri,)"
         2i, M,clo), fII:.,. ~w
         llwldins 410, Srop 2600
         W • .tti"l'''''' DC 2052'

                            RE;     Th, Stil le ofl',...... ),",,)", M mo. ~":mCTlt oi' St", HCUld . 01d
                                    """un I)' "'OW""        . nd U,""" An;", &>.., ~ ;ty Tni,;",;",
                                    (;.""" "","_ D",';"s f"" . 1 Yo"" 2007 n'~>ugl, ,OO~
                                    010 l'ro,iocr .~~, lO·I7J.AUD·H.\-L\



              Atbcbtd ple .. e find 'he sut< of :.""" Jot,«)" ,                       "'POO'"
                                                                                     m j,t;.IlX. ~,"Ii "'1',,>1
         rc~g    OIG'. ,...:U oi' fuc S_ of 'kw )",')", ill""'!'cmcr.< of g,,,,o JIoo,.[",>.! Sec",it!
         Pn~.."" ><11<1 erbon Arc"", &<;",;Iy [niL;"L;,," 1>''-11'' >"'>rded durin ~ ii!",1 yom 2007 throuVh
         2009.

                     0"" Idditiooai noto. in rcg:um ro fiJ >Jin£             ~L j " "-'   "'T-","'d ,II", ,,'" i",,\\,,"!>I'   \>0;
         tmdificd to      ,tr"", toc I,,"~ 11\$ I'cw     jon>;;y ,.." "'" .reo;; in        t.. ,in ~   difflC\llry ill m.,<nring
         off"'" '''''e>,

                     On M e 4 of tbt drafi    "'Jl<l"    """",d paraf~, 'h< '""""t ;"nBuage <10,><., "'" ex""",,
         Ol)' otig.in,j mtue .. ,nd roll inf", tlIO! "'" " ... i. til< 001)' ""e to.t ,truggl<, win, """"""ns
         ,if=i"'-'1'S>, I " ""kI.". thlLt fu, fllllli 1'<PO" "" eo;; 0[,1>;: followin~ =ICOC" iJ",,1d ",-                 ""II"
         it "crrm!1 Y",""I:

                    Stelle offici"l, ",""",.-I,Jil'" dlat, IiI.< (1\1" , "ot;, ",01 "'" 1M"," £'''''"Hne"I,
                    10Cy L.,-c .. ru . ~lcd ",ith • tocO>lllallCnt tool" <:<: ·~,.,o official. ><kool>lhlJtd
                     l~" ,bey "".;; "n'~~",1 ",il)' """"',"""""" tool " IT,,'c Olin' " "''''' , n;1 tiN
                     bJeni ~ov'mm<"'-




            The State of New Jersey’s Management of State Homeland Security Program and 

         Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                                   Page 30

Appendix C
State of New Jersey Management Comments to the Draft Report




        Ann; L.   Riclwd,
        p"~."J
        i"lyl1,2Qll


                Th.'1ll; Y'" fo, ),om ""..-..ktl :0 this =nor, lfyuult.""      '"f  """"i"", or "i.-;fi Le>   J""""
        (he r"1;"'''"o, pic",,, do not h"''"'t< IJ '''ilt""t lr.c ., (em) j~4·407~_




                                                            /0~,<~-"
                                                         Cborlc> B. McKffiIl', L>i!Octc<
                                                         am", ofHlJmdMl,1 SC"OOL)' nld Prtll•.I.<h::",

        Enclomrc,
        ''';     Gerilid McAker, !'.,wci"'" Diroc!<Jr, OHSP
                 Jo"ri' p"",;,,,,,, flero~y Di""""  P"cT"'n'dn=. OHSP
                 [)en"i, Qum, A"'....,~ r:tep.A)' n;.-"cl...- Prcp;o-cJn.=. OHSP
                 A"jU, lJo¢." ', [1,;'" ,\Jmi.in>l;,,., Olli=. OTTSP
                 Willi""l KcL}" AUj"""t Chiof .~dmjni"' ''' iv< Olti"". Oll~r




           The State of New Jersey’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                          Page 31

                                                                                                             o                   ~
                                                                                                                                                 •                    .-                                          ~ ~         <::    •
                                                                                                                                                                                                                  g     ¢     ~
                                                                                                                                                                                                                                                                    Appendix C




                                                                                                                                                                                       -                          ,~    ~     Q
                                                                                                                                                                                                                                         ;'r i 2
                                                                                                                                                                                                                                          ~ ~ ~ :t:
                                                                                                   '<"',.. Z
                                                                                                                                       ??i:
                                                                                                                                                                                                                  f
                                                                                                                                                                                                                  ,~
                                                                                                                                                                                                                  - ''!! -    ~
                                                                                                                                                                                                                                            " i! '.0
                                                                                                                                                                                                                                         ""'"~,,
                                                                                                   ~"' a            ~~2lH~             ~3 ,,",   ;>: [ '
                                                                                                                                                      " - 1-(               ~ ,'" Q         F.i[ii                                       ""-on
                                                                                                   ~ ~ ~'                                                                                                          ~                     ~'('
                                                                                                                    ~u1-~~-'           ~              Ii' ,      ="         •• ••      [                     [ ."  ~    ;; 5"                        H
                                                                                                                                                                            -p                                    'Ii   :I:   ~
                                                                                                    ,." r-"~        ~d''';g'[                , a •••                  i                     l! ',
                                                                                                                                        ,',      ~ ~- ~                     ~ :>- s­        'r~,~~                :""l ~ ~ '             ~ii:.~
                                                                                                   '"". "''''       ,,-'i(X'~-'"       -::. ~    ;                                                                                       "l<~~
                                                                                                           ~                                           " '"                 ii'!l 1f   ~    Z'~o,.:               .!j ~ 6
                                                                                                   '".
                                                                                                    ~'   0   ,,"'                      .- "      'l                                    •
                                                                                                                                             ~                                                                                           "':;;'''''''
                                                                                                         '"" " ~W~C~:
                                                                                                                                       iii   ~    -
                                                                                                               g "'- ~ j ,<             '" ,.,­ lit I "~. .-~ ,-            ~ ~~                                  '"
                                                                                                                                                                                                                  ~ "l '§~               §~ ;;,g
                                                                                                   --                                                    ',"
                                                                                                                                                      ~ ~;- ~                    H
                                                                                                                                                                                       "    $'   iI~                                      ,    ~
                                                                                                                  ~~             t!'
                                                                                                                                                                                 .<         ~Pl
                                                                                                                                                                                                             I ,,'                                .., ,"
                                                                                                                                                                                            ~ ~   ,-.,   0        :;    ~,    :;r
                                                                                                             ~ ~"'~]             ~                                                                                3 ,<        ~
                                                                                                             ~
                                                                                                                    ~ ~'
                                                                                                                     -
                                                                                                                                       ,g­~ ,f ,~ i" .~ !                        q~~        §'§~~
                                                                                                                                                                                                               "   ~    Ii    ~
                                                                                                                    ~ M~         Q..                                             U'          ., :;::                                           ~~ E    ~
                                                                                                                                                                                                                        0'-
                                                                                                                      ~    f!.   :>:
                                                                                                                                       ,    !   a " '~-" ~,
                                                                                                                                                H
                                                                                                                                                                                       1,        ,.          "      _r, ;::
                                                                                                                                                                                                                                                    ~: c:
                                                                                                                                                                                                                                              ...., to
                                                                                                                                                                                 ¥
                                                                                                             !, '"" '" ,"
                                                                                                                                                                                                             t, i ' ,
                                                                                                                                                          :;.:                                   'I          •                                 ~     ;r ,..,
                                                                                                                      -g 8       '"                                                    ~                                ",;
                                                                                                             ~         ~ '"      ;?                                                                          ~
                                                                                                                                       , ;­ , '" ,!•
                                                                                                                       "         ,,              ~-       i B.                   !               ~I                                            ;.:0- ~''3
                                                                                                             [        ,                I         •                                                           ,"         ,n:;;                 ·a .'" ,"




Page 32

                                                                                                                                 ,-
                                                                                                                                                 f        E- ii -
                                                                                                                                                                                                                                              hi
                                                                                                                                                          ,~r i,                                                        n'
                                                                                                                                                                                                                        L     ,,--            ""::;: :.-'~" -gg:,
                                                                                                                                                               •
                                                                                                             •- i
                                                                                                             i                                   "~                                                                     ~r                     ~, ~ ~
                                                                                                                                                                                                                                               c.
                                                                                                                                                                                                                                               ~ "~         ~
                                                                                                                                                                                                                                                            _
                                                                                                                                 i,                       ,d·
                                                                                                                                                            .                                                           ,· .,
                                                                                                             ~-
                                                                                                                                 !               ~                                                                      ~ ~                    Q~[
                                                                                                              • i.                                         , J
                                                                                                                ,                                -"            ,                                                        "-                    ~ ~ '/;
                                                                                                                                                                                                                                              ,             ~
                                                                                                                                                          J                                                                                     ~
                                                                                                                                                                                                                                                  "
                                                                                                                                                                                                                        ~
                                                                                                                                                 W
                                                                                                                                                                                                                        · ,[i
                                                                                                                                                                                                                        -,                    ·"" ,..s
                                                                                                                                                                                                                                               ~ ~         Q­
                                                                                                                                                                                                                        0'- :;:;.             ,..li.
                                                                                                                                                 ~                                                                      ~-
                                                                                                                                                                                                                        ,-    co              ....
                                                                                                                                                                                                                                                     Q
                                                                                                                                                                                                                                                     ~      8i
                                                                                                                                                                                                                                                                    State of New Jersey Management Comments to the Draft Report




                                                                                                                                                                                                                                              '?0g
                                                                                                                                 I ,                                  i,-
                                                                                                                                                                                                                                               ~.    Q      -,
                                                                                                                                 i ,             ,                                                                      ·                     ·, .
                                                                                                                                                                                                                        ~ -~-
                                                                                                                                                                                                                        ~,    5.              "




              The State of New Jersey’s Management of State Homeland Security Program and 

                                                                                                                                                                                                                        0""- ft-
                                                                                                                                                                                                                              .               !




           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

Appendix C
State of New Jersey Management Comments to the Draft Report




                \!cdbl      SllWli,~   }11<>"",,,,,.,,. ,,,,I fJi"'nbo" , ,,
                rulCIliOI>O'- Tl'io!Io Hnd Pr<>-I·h,,:u.1 T""',,,,,,[
                IwI"~"      ."" Qw...nlino
                ra~,lil)"   VIM.'!?"",,"!
        7       .\.ti"",,1 Prior;',.: 1'.ntI."<>C< c.""n~phk l'lMlllin;; m:1 Cit;,,,, l'r<pMcdrr" C>pJIbilitie>
                ]'l:mni'-'ll VJ.v COOf/COG)
                Critkolltc,OlllOC LOI i.1i" • .,d Di,trib<rion
                Cit"", lO;,O<:\,.u"" """      Shcl"~-;n-l'I""
                ),I"", c",.  (Sh. lL. ri"", r.wi '-" """ n , I,,,,," ~ m ; _ ;J
                Cornn·,,.-';I) P"'l"'","",,", .. .J P"'licil""il"

        3       &.I~   r'''',i[), 1-;"),,,,.. , Il<b:-., S,1jd\ ",.I R,o< .. C,po.lilit .. ,
                "',"'" 000 Rooe"" (L.""_Il"""fl

        9       &ate rriolit)'; Inhoo.>cc D"c",~''E",-ironmontru H, .., d h po.<II< Det«otion.
                '-\""'''''''"'t, ,.-,J I"m.i ~ .u,-", C"","'iii(i<,,-,;
                Ff'" l<;miok,!!",,1 '"""iI1."", ,nd Yn.'Mig""inn
                L...bor_)' T.~.ing
                Ar,;md j)'",..., r''''''"boe<IC), Support
                Co.i"" ,",""tai [[<>.I~,

        10      OU" ]'riolily: UhalOC In-- Enfor<O""'L" In\">i.il"I'",/Opc.-"~mol C,p;<boIiU",
                Emc¥-'OOy Public S,foL)- ,00 ,",",lily
                Counter-Icrrorln"c,og"lion "",I 1.,,, r",".-c"",en1

        1j      &.'" P,""-i1).     "J",,,,,, &''''''''t'''' >nd _",-cry Copablliti"
                Nl1>O""'"     lJruuo~ .   A",,,mcnt
                """tn,,"'''' of' ,If,linc.
                u ooomic ..-.:I CctnJ\lunh' R=--<ry

        SiIr<O til<" incopli(", or R'M_~ ', C"I',)';li'"", Tl~"'ll'l""";ns (i.< , tho 17 too'g" c'pol,;I;,,,'! uoo.",
        -IK FY06 HSGP p!n ,;Il>' l"''''''~ 11>< OT!~P t..; ,,,n1i""0<1 '" .t'Ii" L~ capahili1;'" .nu Lki,
        " wei."," ""'i,-iti,, ..,.j " ', ' Lot Ih< pl"'",inS and priori j"uoo of SIIS], ond L'ASI projoc'
        r"ndi"S (= atta.oh,d <m.i], d~ No.,mrer ~,lOO':l_ ¥ci:ru",)' 10_ 2010 '"" ,IUOC 2, 2010)
        lInr,)([""toly, H'.MA h .. oot ><o,i&o til<" ,tote, ond (,,,,ibrio, wKh , oOLnprci>omiyc,
        autoolat<d, . it"""i_."" ...       "",,-,;:nI
                                                  tool IMt con be ulili""J by both llU.i ... 1, (.[ ~ OVC'tllll"'~;
        :md tbe "'>tc

        r, ~ Ll", fYIO 118liP tundinl\ c,-el. , PEMA ~uir'd =lL <t""" =1 "':r~Q'Y to rtxnit •
        qLl,,,"ilcli,ei)- lit;.',", ,are 1'''I''',OOne" Itcp<lrt (Srll;), 11K fYW Stl:. 1"0<,,' I0.1nir<d ,,,,,1
        """ . \,,,.it,,,y to qu."Iltitatively '0(lIe (j",in ~ , ,,,,Ie
                                                                   of 1- W) thoi, k.-~--d uf c.~""ility fc< cocl! of
        the thirty·=cn (ll) T"IP C. p."I;li". r:,i, """,,,I 'h, Ii'~_lim' 'hoI. 1'1'\1'->' f""vi(led ~"k"
        '-1ld t,rfito.-i" witil <u oo\;ne, ,"I"",,,,"". qWl.nL;t.li,'o ""I Ii" ;o;",,..ing . "J n""".n~ [""0'"




           The State of New Jersey’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                                Page 33

Appendix C
State of New Jersey Management Comments to the Draft Report




       c>p.biliIi.es. Thi, too! i> known"" tOC SPR Sw.T)· T,X>!, Tk iniliul rY~8 SPR oooJ rY09 SPR
       upd.to tl"t " "httuilori"             hit"
                                             j;) ",\>mit to HoMA ., PI"" "I' ,he rY<I~ "M l'YI)'J II~(;P
       fundiI1,i1 <),cl" were 'l""Ii!>(i"" ("""",;"~,'",,L) "''''''_,., '" lhere w>< 00 Sl'R S1ll'v<J' 1'001
       ""rilaM, .. tlnL lime,

        !'riC<" 10 tho    I'Y~8-rYI~       <;PR     _h<><I,~,,..:,,,,
                                                                FHiA aiE:r.od iIOOd.er OC. ,.,ll"'nao:e.i non­
        qwmlilaLi>< m,ll...J or .."."",,,,,t            1',,,
                                                        lh' HI)(,·fY07 HSGl' fundinil e}~I" hioWll ., d:.c
        '1'«'11"''" .nJ {LrWil;ly    1'"1».,,,,,,,,,,,t PIM." 11>< ""rent SPit Surv...· Tool 1ltiliz.:>l in tile
        rY I 0 TJ~"P fundi"" c),el. Ik" • '~fI1iiiC"'lt nmctioMiity lil~itMiOll in tic" it J<.><~ "" "",~"' ly
        . 11<)", f,,, lo,,~r h'd jUIik1ktiom (mllnicip<tiiti", <",-"ie>, ",,.i(u ) to ,>til"", ,he loo! in.n
        outomated &,hl"", Thi> ,.;Ycrely limited the OHSP', .bi1i1r ", '~"I up" ""B"- ,,,,,,,,"Iil~
        ""."rulenl , ,,.. from i"jllri"Ii<~~m.1 l",'o"" (21 "",m11,,) In"" aLOm<I«i ""'~"'hon'i\'''
        ""'" m ifOIm llUililCl. Gh'<Ll tbo: hlIl<lion.Uy li"';\01..,,.,, HM.~ IlO1 ,.-.1 req.i"    """",'"";,-oti,,
       '" "''''or< thcir t'.r ~c1 ",~,,)';1;1"" I", lh. rYll II~(;P ~,,. ~ appli"t"''' ""bmi"ioo..

        A, ""i<d on Lh< .Lwch,d '.-1..)' I", 201l, .m.iI oo"",pondc",~ b"wcc~ OHSP Qr,nt llmcau
        a,;"r Tfllp<s -.II)] IS' Cothy Krlijt>:, OH~I' b.1.1 " rom,," ro pr<:." FH-fA 10 b<: """~ in
        on)' planned ,olklut of. '",,'' ~",,,.i()n SPR 5""9 1001. AI ('"              l'f"'"'"
                                                                                          II,,,,,, rEM.~ I, ,,'"
        plonni"ll to pr",';&' n I1QXt ~ o:ncruti m SPR S",,"y T",I ", .. ""~',",,,I,,)<i<> "",il """"t;".-", ;n
        cal' 1>.1" Y'"' 2012.

       ''Ie,. )or",), hn, ulili,.<>l II>< fYIG     ~PR S"",e)' l'ooJ ",,"''''''>ent 'OU "'" o.«Ii,., of I, v.,!> of
        e<jXlIJ;lil,' "ilhi" • ..,), <>f "'" u,irt)'-""<n (l7} Torg<t C"p"biliti,,_ Gh,~ IDe limi",»", of IDO
        CUIT"'" SPR S""e~ T,"~, "'" HIaI< of N"", kl","J, tI!rou ~ OHSP ,:-.;1 i" """ ,_". p'utncr"
        .. """"," ""'" ,,/ <be 37 tall;et e>pobilid" 00 b<ho.lf of tr_, 21 ,owoti,,, ("c'ipicnh of tho '(1'".
        loco! !!:W. )lu, till",, ~ ) in Ml eff"" to L        "'''''''''' "''' """,,1,",,1 ",o,,,il)' I",[",m'''"' ,,,I
        1'''''<''''' to""~ro. enlwlcinj; ~I<dm"', D<pendi"g.m ~·"",,'ir mM,~ ",Ie:"" 11", "",1
        ~' n.norictl SPR Sur.'c,)' Tool, New j""",l' rio". to) " ' '''''', 001 '" IDlluol M!i" the dilltj---<,,'<.tl
        (!-7)   11!I~ot C~l"),;lili<:'   in<:"1Jl'IT'ti:tg jWj.etIl!OOin£ :hat no, 1>«1\ """ modioolUplC<C<l .;"'.
        tlK ,prinj; of 2~ I~ "''''" tho ,Yin ~1'1>. rep"" "ill , rb mittcd to fUt!\., Too" while.,. it "nteo
        on pog' 4 or ,he • ..!il thaI        ,ta"
                                              ottidal! '"",know~ 1b.,t fu:y did oot h.vo: , "'"". for
        m."",,w",s i"'f>'0~"'"'tI" ,,<1 PJ ~I"'0dt><" c"",bilitic:l, the)' di l >oJ in tho 0",",,,1 uI Il<Jli~ l~1
        I),i, ,i","I;o" i.l """,J by mo>1      ,tote.
                                                ond tho fcil",l ~o"'t1llncnl,

       li e< ";dJ,,,,mdiL,,. Ibi, I'rubkm. ullinI' "'" l'"d,~"",,,,< "",,,",urool<Jlt ":j'''''u """ !tcp nV1i:.<t
       };ew J=cy "ill n.qui,o ic. '''~''Lr-<ln'' (21) COtr _Ties to uj>d>." 1brir ",,,,,,o<i,,, collnty homoh,
       >ccurit)' "">log;" pt.", ;,01 P"J"I"" c"""')' centric Sl'K thnt "".\lmtd)' ",flea. ",e'" '-""'Il1y',
       hoh C'/' ",poi,;I;,)' "n.n ",xx.,] Moil 11:.c coontic, will U>C 1boil' SPR "orulg "'" ba.>oline
       kvol "I' ~j[j1)' aM eoc:, Y'''' ",score their SPR .",,,,m,,,,, ",,,," "1'''" 1"""""" lumli"~
       eye", proj<ct infolllll'cicn 'lc... h",,), "ill ,,"pI,,~ :J.i. """,,,,,,m"K ,y""'m tn "",,-,me
       1,,,,,,,,,,,mcn:S W. 11:0    ""t,, I>l ecooh "",,,,l)'" P«"''''""'' 1"""""""', ""I'"n." . 00 """"'''')
        c"Ilabilitic:l,




           The State of New Jersey’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                                  Page 34

Appendix C
State of New Jersey Management Comments to the Draft Report




        Tho omr G,,,,~ and Pmg"m VI"'''I!etrl."., rl...-".u "'" '0,...,,,,,1 "" J",., N 2<111 (=
        .nacbM ,m. ;I,d from I']'MA', Cathy K,>igllt) l() l"rticipal< in "" e:llly "',';"w "r ""' "ex'
        ~"""ration S1'K ';l1"~ y 1001 That ¥h)A/\ i, looi:iJIg to roll ()U[ in caI<nill.r y.ar lOll A brier,,,_
        , ..,<ion i. ""h«lul.d fur Jl~ Y 2~, 201 L




                 OIISI' o,"~ Bill_' aooi, policy;
        2        01181' Gr,.,.. T""killf 'y>t"" (GISj dota 1'<<ri" 1l1<"'"
        3        COllpletioo of. Hom<1"Oi Soc..it), Ur.mt Program 1\,00.0 V, hic:. Upu..:or', L<>;; fur
                 .11 ,,,"licks fun1.oil by rhe Hcmo!,.-,j &cll!ity GfilJlt j'ro ~"'lll; and
        4,       OHSP', "ml"""",! "lbirnItcc odmini,tr.ti", , nj !'«li!'lJlllll.~tic ,,---vicws condolCt<d b)'
                 OHSP !i,i"""

        OHSP\ G",n' Rure.y >'wiL 11,,[[ """ '/'irl<~ it> h",u, ',om d._~ HuL 3,un' -'iL, LD Q:>,n ~ .. nl
        ,ooi"" S<1",\<d ",jmbm" e m"~                 "'q""""
                                                        trom <uhS"-""" ,'" I"'i"\\ ,ndil«! 1";'" to'
        J'timbUl'S<ment ,-\,"" "ritic",i.,., <'<oplOYlOCllt, tr";niJIJ; ocoo., mcthoj of p"""" ..,.,nt "ad
        "'quire<! ",';tt.n .~.me"", ....ilt other .gene;" 11'< >lOW 0XMlln0d roum,,!y,

        OHSP', Gnmt, Trockinll Sy,tGw C'GTS") I"" lxcn cnMnccd 10 TC<Iui" tho                       "'Xl)'   of ".;\ditio",,!
        bud~,t"'},    lim 'lem     ,1>.,.   , lc"",n~, Iu i",l,oJ"     "",1hc>J of I""" K'"""",    ~"''''    or ",""e:'''I)'
        Irllinill>' ir "",ui,," I"i", '.<J <1-<plc,)'m.,,,L; up!;","i"S ",-.   ,.,.,..=1 M"',"".....n   ufUn("",.,noJin~
        .nd JoP" y,,",ol "'u'''' ,,(, 11<,,,",,

        1'0 ".;\d:m H()"",ol"",, S=xity OfilJlt Proi"" '" /um'o1 "chide                ",~, ,,11 ,ubpnt,,, ,h,jj
        C"llll-~otC • Ydliolc     iJp<:rJ1of" L<'I' till •      llllJlll~l)' bl<li~
                                                                                  Th-.w lu~, tIN moinWtIC" 111 1m
        "' ~'"'" I(",d "",I "j'('           ,   ("">pOD'''' of ,!.,; """;_,"",,,1 OHSP "",I 'uo!l'1lnic'C Hum,l:<nd
        Sccurit)' Gr"" Prop,m          ,t"""      ,,00 po:r[o"""n,,, """",-,


        'i.-...II)" OTT~P li,i",""", ""'" ""lui«<l [0 coodu" ",mi_,""lUal ~',"nm"i< '''''MilOtin! ,i,i,-'
        1(.- ,uOb"''"'''''' ",,,,,aeu l'u,oJi,'I. undo; 'he TTo_l. rod H",'-;'! (;,an' I'm~"'''' ,~""Lu, und
       pott<m)U!}C< 1'<vi"", ror.1I o]><ll gnut! v.itlr ."'~            ,q,t""'"
                                                                             will be =duc<ed "'ie •• ,"'" [0
       includ< ,     """w of ]l«)jc" 1-"""1:"'''' "cilicl. Io~"" por,o!]OC! crniii" tiOll (time) 10m", MOL',
       ocp!o)'llIcnt ,00'" of p m futxIcd it<m:s, r<qoirc<l "'"nin.: for I>OOlt f•• d,J item>, rcimoo,,,,,,,,cnt
        rcqUC3ll,    "ob",,,,,,,,,',   ll",nC'hnd S<'-<Inily S!;"'-"g1< PI ..,. TYIQ Sl'lt T""-,,,I <:""";"Ii,,,,
       po:r[o""""". meu"""",,,nl "'!'l'"liTlg (cr<i'U\l l'!1 ,.., "",'-'11 h:.L.j,l, ;MI'''''I' ~y 'l_"""'" "coT'()
       ""'"Li,,,, I"""Lice, ("'" ot,,,,,h«! -,,,,,,, !l, 2m 1, =npl. em"H "".if",tio" from OIiSP ~"'...
       P'''".,r''-'''' laison to counti" re!'em!"" r1< " Illi ,,",,1l:U ~'.mlll'''ic lll00irorill~ viti")

        he OHSP "ill """-""       th~ u ,o.SJ ChIVtC< ~, 0kcl It.; bLy_liw (4,) ,j"y ii"", fmr,'
       ""~,i"""",,,  Tho OT-T~P will orf"""",,, Ih                 "'."g'
                                                             vi., to,mol I"t« r",,,, the Di",,~~ "r
        OIlSP ~, ,ho (:t..i, "r (he IIASI I:''''c<i", Commilt<e (J11S!' will ""lui .. thi< tI .. :let.il,d




           The State of New Jersey’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                                  Page 35

Appendix C
State of New Jersey Management Comments to the Draft Report




        'V'lcli,,!! r""" "irh hl£cl "nr""", he ,ul.nin,d '" ttle Or.." ond Pro~ \~'lll<Illllc<,,,u
         roo Ie. ,oji", Rn}; loc:>J sII= IJMl 1"" 'C1D1IgiI fOO,;I, "ithin thirty (J~) w;" r",m 'he "lliei"1
        IJIIS "",1lJ'([   "0<,"   Loo.1 ,h.1l~ feold, tl"" .ro ml ",Jic"'-"<l ", "             P" *'"
                                                                                               ""im mtlki,,,.­
        inti1~",<"," <ooai",d ,,'thill tOO 'I'C ndin~ pbn "ill bo reprc"-nI:TITIl,,I") 01 [sr w,H"" ll", ['''i)'­
        fl'" (451 d,,. rime froIDO ,]o"",bk. On ."'r<il 20. 2011. '''' OtiSP 0,..... >d J'ro;;.wn
        .\l_senltnt lIurcou .,j"i=j tOO U,~ 5T Fx","';,'. (".,,,,,,,11[00 CJ"i",,,,1\ .boo.tt ,hi, pc<ellti,]
        forrlloomiTIJI findill\l'

        Over tho 1_ ,",vc<,,! ,'0""', No" Je=)' h'" ;m?-,m<nt.d ",~nl "'lllini"""ivc ""illlio,, , 10
        "",,ol. rnl . n,. "_r-.u ",,~,," ",to "r o<v H"--,l' ... l"",,,,~,,,,,, The"" '''1'' ;""Iud. tJ,. bok",'
        "",;'m,
                  A bi_"",ntJ-J)"    ~I""t   "on" letter i, lIIl(;h1 to lho   CFO"'Admi,.,"""~     .nd ocr<'" 10 ,,,her
                  e<"lJlI'i ,UIff.
        2         OHSP h" idcntil,ed ""I,            ,~,",iO'   'h'"- "III Ph)cllre   on~ .,   b<lalf of ]oe,] or ""'"
                  'ubit'_"',
        3         The ~.." e),cl, pI,nni,,!; 1"''''''' I,,,, """" moyoc[ up 10 AUWJ.lt mtl"" tl"'n "","tin!! 'u ti
                  rei""" or 'ho HSl1P (lyi<i.toc, _ Applic>o:ioo lit, w",lily reb"d lot, "o""nb<.~ or
                  ",,;I), n.;;:",mh<r, &b\'"an_ " ct imtructed 10 ~o bcycai ~'Il<rali')' ro,- pl.""""l<l<,, """
                  "",,,lap" eomp]e", impkmenl>tion pl,n oddrr.;,';.g 1'0 »-no, ""-', "f,,", d"'to,""w
                  .cui why of tiro ><c1oct,
        4         OHHI' "vic.,-, VW:IpOOl"" """,,,,,(00, ,,,,,,rd'''f 1"""'$ ;n ,,,,,m, of ",!'j~ ll pct< Of.<:1l ~O
        a<        ircn"", ..,yvi"", oroorW ..xl .., ir ",I""" u) • 'reci!1" P"'j<ct Frior t~ niliIll , I>= .wu1,
                  lfM<: i, , low, ",,'"      I""", "'0 ,." ""....-    101h<rutw""'''"'
        I,        OHSP 00 ;"[0"'"'" ,"hS'''''''''' til'" =rti,,: ",ith lY09, !IIlY doll.m not ordorQd 1:»' the
                  cud of ll!c ooigi"ull"""O,,""OC< p<tiod llUl)' Do !eprolTI'mmed by OHSP, Subi>l"nt""
                  hov,   he,"     ,-,J,';"-,d that tl><y !oollld oco: expect OIJ.',P ~, """ o"<n~'m ",)'""d         ,he
                  ,~,~i,"" p"Jiod of jJCIf(J<JOW>OC,


        F"", ",f"", hein. m",l, "'''''' "r Iho OTl1 "0011. Ill< DlISP (;,,-"t JJId l'rol!nm MlM"elOCIlt
        Huro.u e3!>bIi,hod • policy Lbo! "'lui"" . tl " 'W"-"""'" to OOI.i ~ "tc o<i, iMliy             ,,,,,rdod
                                                                                                         i!'\Ilt
        :to!hn wllhi" lhe "n~,",,1 1""00 of po,t",roaoc. ("'" ,ncbcd em. il J.I,d Jr.roc 8, lW ,, ~ I Iwo
        """i"   "",,1 "rt"'nho'~, 2m()~ (}liS!' "iii >Cd . n cx'en.>';m beyooo 11,,, ,vi~i".,                l""'' "
                                                                                                             or
        l"'rfm llWl<" Ii" ,uh;r.""", only whc~ the rubir"'''-'''' Nq\",t ['" "'"-" """"'; 00 i, i">li Ii,"
        l"l ,ireu"","""" w<ll b<)'co:J tlr<iJ eonn""- C<        """'t""
                                                                   (",I          ""IJ ",'
                                                                                 hov, ""'" r''''''etl b,' tho
        ~,hS"'nI« Do li"", fo< which ino!iomiEoml j,>'Iii""LI "" ), .."           ""'" 1'''''''>J.oc[ will b<
        """'I'O'Jnmcd by OHSP . t            t.""
                                        eml oftloc ,m~,,,,,1 p"',od "r p",bo"",,,,,.

        OHSP h.. ",,:JOI>kil (\00 0,,",,' ,~ g,...,,,,eJO! '0 i"dudo Ian ~m ~o dlllt ek"ly rcquito, ' U;,.:OIlt", to
        be .bk ~, iJeni.ify oQY'9m,," p"',boo.d win H~lllehUld Secunly 0,00( I'r''b~.m I.."", To
        ,.J,1i';',,", "u,lIbo.r,.,,,,,,,
                                   will N required '0 ,,,,,,,h,, " ph)"';,~1 in,,',,""'y ""Y ',,"0       Y""·




           The State of New Jersey’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                                Page 36

Appendix D
Description of Homeland Security Grant Program

                       The Homeland Security Grant Program provides federal funding to
                       help state and local agencies enhance their capabilities to prevent,
                       deter, respond to, and recover from terrorist attacks, major
                       disasters, and other emergencies. The Homeland Security Grant
                       Program encompasses several interrelated federal grant programs
                       that together fund a range of preparedness activities, including
                       planning, organization, equipment purchase, training, and
                       exercises, as well as management and administration costs.
                       Programs include:

                                State Homeland Security Program provides financial
                                assistance directly to each of the states and territories to
                                prevent, respond to, and recover from acts of terrorism and
                                other catastrophic events. The program supports the
                                implementation of the State Homeland Security Strategy to
                                address identified planning, equipment, training, and
                                exercise needs.

                                Urban Areas Security Initiative provides financial
                                assistance to address the unique planning, equipment,
                                training, and exercise needs of high-risk urban areas, and to
                                assist in building an enhanced and sustainable capacity to
                                prevent, respond to, and recover from threats or acts of
                                terrorism and other disasters. Allowable costs for the urban
                                areas are consistent with the State Homeland Security
                                Program. Funding is expended based on the Urban Area
                                Homeland Security Strategies.

                       The Homeland Security Grant Program also includes other
                       interrelated grant programs with similar purposes. Depending on
                       the fiscal year, these programs include the following:

                                Metropolitan Medical Response System
                                Citizen Corps Program
                                Law Enforcement Terrorism Prevention Program
                                (through FY 2007)




           The State of New Jersey’s Management of State Homeland Security Program and

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 37

Appendix E
Description of State of New Jersey’s Homeland Security Grant Program

                       In 1999, the Governor of New Jersey established the New Jersey
                       Domestic Preparedness Planning and Coordination Group to assess
                       the State’s capabilities and to plan a coordinated response to
                       domestic terrorist acts. In October 2001, less than a month after
                       the terrorist attacks of September 11, 2001, New Jersey statutorily
                       created the Domestic Security Preparedness Task Force, a cabinet-
                       level body. The task force is responsible for statewide coordination
                       and supervision of all activities related to domestic preparedness
                       for terrorist attack. The task force became part of the Office of
                       Homeland Security and Preparedness in March 2006 and is chaired
                       by the Director of the Office of Homeland Security and
                       Preparedness.

                       In March 2006, Executive Order 5 created the Office of Homeland
                       Security and Preparedness as a cabinet-level agency to administer,
                       coordinate, lead, and supervise New Jersey’s counterterrorism and
                       preparedness efforts. This office provides overarching guidance
                       and coordination, develops and administers training programs,
                       conducts exercises, tabletops, and simulations to assess and
                       prepare responses to all hazards, gathers and disseminates
                       intelligence and information on counterterrorism, monitors
                       programmatic and financial activities, and conducts field visits.

                       The Office of Homeland Security and Preparedness recognizes the
                       need to include all levels of government and related disciplines in
                       the process of homeland security planning. Accordingly, it has
                       created multidiscipline working groups at the state level and each
                       of the 21 counties. The state-level Planning Group Executive
                       Committee is comprised of 22 state departments, agencies, and
                       divisions. This group’s focus is on the coordination, cooperation,
                       communication, and integrated planning among agencies likely to
                       participate in the detection, deterrence, protection, and response to
                       a terrorism event or other disasters.

                       With the advent of the capabilities-based planning model, National
                       Priorities, and the 37 Target Capabilities, the state has identified
                       and directed one state agency to serve as the principal point of
                       coordination for each of the target capabilities. The principal point
                       of coordination is responsible for convening a committee of other
                       stakeholders and subject matter experts to develop a statewide
                       strategy to achieve the desired level of the target capability. To
                       accomplish this mission, each committee assesses existing
                       capabilities, identifies gaps between current and desired levels of
                       capability, determines appropriate agency/discipline roles and
                       responsibilities, and designs implementation plans for initiatives.

           The State of New Jersey’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 38

Appendix E
Description of State of New Jersey’s Homeland Security Grant Program

                       The 37 committees provide an opportunity for stakeholders to
                       engage in an integrated planning process to create a common
                       blueprint to achieve shared goals and objectives. The committees
                       help prepare the State Preparedness Report and Investment
                       Justifications for review by the State-level Planning Group
                       Executive Committee, and obtain final approval from the Director
                       of the Office of Homeland Security and Preparedness.

                       In each of the 21 county governments, a mirrored multidiscipline
                       working group is responsible for creating a county homeland
                       security strategic plan, identifying county needs, prioritizing
                       homeland security projects, and developing operational and
                       implementation plans for its funded projects. The county working
                       group is staffed with representatives from various disciplines of
                       first responders and key representatives of the county government
                       structure needed to discuss issues relating to prevention,
                       mitigation, and recovery/response to a terrorist attack. The Office
                       of Homeland Security and Preparedness reviews county initiatives
                       to ensure consistency with the state’s overall Homeland Security
                       Strategy and inclusion in Investment Justifications submitted to
                       FEMA.

                       In addition to the county working groups, the Office of Homeland
                       Security and Preparedness organized the 21 counties into
                       homeland security regions to promote and enhance regionalization.
                       As part of the FY 2007 Homeland Security Grant Program
                       planning process, the State’s five homeland security planning
                       regions were consolidated into four regions (Delaware River,
                       Northwest, Shore, and Urban Areas Security Initiative), which
                       were organized based on common hazards and geographic
                       proximity. This regionalization enables New Jersey to leverage
                       subject matter expertise, share specialized assets, enhance capacity,
                       force multiply capabilities, and sustain longer-term response and
                       recovery efforts. Each county working group represents its county
                       within one of the four regions and meets to identify mutual
                       homeland security issues and discuss potential regional initiatives.

                       New Jersey’s one Urban Areas Security Initiative area, which also
                       aligns with its Urban Areas Security Initiative region, represents 7
                       of the state’s 21 counties (Bergen, Essex, Hudson, Middlesex,
                       Morris, Passaic, and Union) and two municipalities (Jersey City
                       and Newark). The FY 2005 Urban Areas Security Initiative
                       program created the Urban Area Working Group, which is
                       responsible for developing and implementing the region’s
                       homeland security strategic plan, identifying regional homeland

           The State of New Jersey’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 39

Appendix E
Description of State of New Jersey’s Homeland Security Grant Program

                       security needs, prioritizing homeland security projects, and
                       developing operational and implementation plans for each project
                       that affects the region.

                       An executive committee is the strategic planning entity for the
                       local share of Urban Areas Security Initiative grant projects and
                       programs. Local and state-level subject matter experts within the
                       Urban Areas Security Initiative region chair subcommittees to
                       develop regional approaches to increase levels of capability, define
                       appropriate participant roles and responsibilities, and complete
                       Homeland Security Grant Program investment justifications.




           The State of New Jersey’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 40

Appendix F
New Jersey Grant Funding Compliance Issues

                      During our asset verification and documentation review, we observed
                      several compliance issues that could have been identified through routine
                      on-site monitoring of subgrantee performance.

                          Improper Payment for Equipping an Emergency Operations Center:
                          An Urban Areas Security Initiative subgrantee paid a U.S. General
                          Services Administration contractor before goods and services were
                          fully rendered. The subgrantee was reimbursed $1,500,000 for
                          equipping an Emergency Operations Center. As of March 2011, no
                          equipment had been installed, and less than $150,000 worth of
                          materials had been procured. In response to this discovery, the state
                          informed the subgrantee that future payments will be withheld and
                          requested the return of the $1,500,000. On March 22, 2011, state
                          officials informed us that the subgrantee had returned the money and
                          the state was in the process of returning the funds to FEMA.

                          Inadequate Supporting Documentation for Claimed Expenditures: A
                          state agency subgrantee did not have documentation to support eight
                          expenditures totaling $861,044. The State agency could not provide
                          purchase orders, invoices, salary and employee benefit records, and
                          equipment records to support claimed expenditures. According to state
                          personnel, the missing documentation could not be located due to
                          personnel turnover. The Office of Homeland Security and
                          Preparedness’ grant agreement requires the subgrantee to comply with
                          Code of Federal Regulations Title 28 Part 66, Retention and Access
                          Requirements for Records, which requires that all financial records,
                          supporting documents, statistical records, and other records pertinent to
                          an award be retained for 3 years from the date of submission of the final
                          expenditure.

                          Goods and Services Procured Without Full and Open Competition:
                          An Urban Areas Security Initiative subgrantee awarded without public
                          bidding a series of contracts to a retired local fire battalion chief to
                          provide Community Emergency Response Team and National Incident
                          Management System training. The value of the training contract
                          increased from an initial $80,000 to $254,444 over a 3-year period.




              The State of New Jersey’s Management of State Homeland Security Program and

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                 Page 41

Appendix F
New Jersey Grant Funding Compliance Issues

                          As of October 2010, the contractor has been reimbursed $239,944 in
                          grant funds. FEMA procurement standards and guidelines require all
                          procurement transactions, whether negotiated or competitively bid and
                          without regard to dollar value, to be conducted in a manner so as to
                          provide maximum open and free
                          competition. The subgrantee passed local      Extraordinary Unspecifiable
                                                                        Services: Services which are
                          resolutions authorizing the award as an       specialized and qualitative in
                          “extraordinary unspecifiable services,” but nature requiring expertise,
                          did not indicate why the contractor’s         extensive training and proven
                                                                        reputation in the field of
                          services qualified as such or why the         endeavor.
                          services could not go out for public
                          bidding.                                      Source: NJ Public Contract Law
                                                                                 NJSA 40A.11 et seq.

                          Furthermore, this subgrantee did not
                          obtain written approval from the Office of Homeland Security and
                          Preparedness before awarding the series of sole-source contract
                          procurements. FEMA procurement standards and guidelines require
                          all sole-source procurements in excess of $100,000 to receive prior
                          written approval of the awarding agency. Although the contractor’s
                          initial proposal totaled less than $100,000 and would not require
                          Office of Homeland Security and Preparedness approval, the
                          contractor submitted a second proposal, increasing the contract value
                          an additional $44,444 to $124,444. A third proposal was submitted to
                          extend the training period for a second year and increase the contract
                          value an additional $130,000 to $254,444. Accordingly, the
                          subgrantee should have requested Office of Homeland Security and
                          Preparedness written approval prior to confirmation by local
                          government officials.

                          Vehicle Used for Daily Commuting Purposes: A county subgrantee
                          used a $30,839 “CBRNE (Chemical, Biological, Radiological,
                          Nuclear, and Explosives) Communications Vehicle” for daily
                          commuting purposes. Documentation provided by the subgrantee
                          indicated that the vehicle was used approximately 39% of the time to
                          commute to and from work. The subgrantee stated that the on-call
                          nature of his duties required him to keep the vehicle on hand at all
                          times. The Office of Homeland Security and Preparedness FY 2009
                          Grant Agreement requires subgrantees to adequately safeguard assets
                          and ensure that they are used solely for authorized purposes. Daily
                          commuting is not a use authorized by FEMA. The subgrantee’s
                          proposal for the vehicle did not indicate that it would be used for daily
                          commuting or assigned to a single individual.

                          Health Monitors Deployed for Daily Use: A county subgrantee placed
                          eight “tele-health monitors” in residential homes for daily use by

              The State of New Jersey’s Management of State Homeland Security Program and

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                 Page 42

Appendix F
New Jersey Grant Funding Compliance Issues

                          private citizens in non-emergency situations. The subgrantee
                          purchased the eight health monitors at a cost of $25,385 to open bed
                          space in a local hospital in the event of a major health emergency, such
                          as a viral epidemic or natural catastrophe, by moving non-emergency
                          patients into their homes or other private quarters. However, no such
                          event has occurred since the purchase, leaving the current use of the
                          eight monitors unjustified. In response to our finding, the Office of
                          Homeland Security and Preparedness requested and the subgrantee
                          agreed to return the equipment to inventory and reimburse the state for
                          the percentage of lifespan expended.

                          Training Not Provided to Deploy Tactical and Rescue Equipment:
                          Two county subgrantees have not provided training needed to deploy
                          federally funded tactical and rescue equipment. The first subgrantee
                          purchased five breathing apparatuses along with a set of protective
                          suits in December 2009 and February 2010, respectively, at a
                          combined cost of $37,166, and has not yet deployed them to the
                          Special Weapons and Tactics Team. A county official noted the
                          diversity of jurisdictions associated with the team, and competing
                          training programs as challenges to scheduling and completing the
                          training needed to deploy the air packs and suits. The second
                          subgrantee purchased 20 fire and rescue rebreathers in November 2009
                          at a cost of $175,000, and has not yet deployed them to its first
                          responders. A county official noted that the person who requested the
                          equipment retired and required training fell by the wayside.

                          Memorandums of Understanding Needed to Deploy Utility Trailers:
                          Five medical support trailers purchased in March 2008 at a cost of
                          $28,150 have not been deployed because the local subgrantee and its
                          five county hospitals cannot agree on the language of the required
                          memorandums of understanding defining the ownership and use of the
                          equipment. The trailers will allow the county hospitals to store and
                          deploy medical equipment, such as cots, masks, ventilators, and sterile
                          gloves, during a large-scale emergency event when additional hospital
                          beds and medical supplies are needed to treat large groups of persons.
                          Without fully executed memorandums of understanding, the trailers
                          cannot be deployed to enhance the five county hospitals’ preparedness
                          to attend to persons in need of medical treatment during a public health
                          emergency.

                          Agreement Between County and State Officials Needed to Deploy
                          Photo Identification System A county subgrantee purchased a photo
                          identification system at a cost of $43,988 that is inactive because the
                          subgrantee and the Office of Attorney General disagree on the format
                          of the physical card and data to be collected. Therefore, the county
              The State of New Jersey’s Management of State Homeland Security Program and

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                 Page 43

Appendix F
New Jersey Grant Funding Compliance Issues

                          subgrantee cannot distribute standard identification cards to its first
                          responders that will allow it to: (1) track first responders at the scene
                          of an incident and (2) mitigate the risk that unauthorized individuals
                          may gain access to physical or logistical assets as a result of improper
                          identity.

                          Frequency Licenses Needed to Deploy Interoperable Equipment: A
                          county subgrantee did not procure needed frequency licenses before
                          purchasing radio equipment in December 2009, using $286,499 in
                          State Homeland Security Program funds. The subgrantee purchased
                          the radios to improve interoperability among police, fire, and
                          emergency medical service agencies. However, until the licenses are
                          procured, the subgrantee cannot use the equipment and fully
                          implement its interoperability plan.

                          Computer Equipment Not Deployed: In July 2009, a state agency
                          purchased three laptops at a cost of $14,716 that remained unused. A
                          State official reported that the laptops were to be deployed in three
                          specialized vehicles, but the vehicles had yet to be procured because of
                          complications with a state contract. The official also noted that, in
                          case of an emergency, the laptops could be set up quickly for data
                          analysis or other purposes, but have not been assigned to duty officers
                          as intended.




              The State of New Jersey’s Management of State Homeland Security Program and

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                 Page 44

Appendix G
Potential Monetary Benefits


                                    Classification of Monetary Benefits
            Finding                   Rec.     Funds To      Questioned      Questioned           Total
                                      No.       Be Put to      Costs –        Costs –
                                               Better Use   Unsupported        Other
                                                                Costs

Improper Payment for Equipping
an Emergency Operations Center         4                                      $ 1,500,000   $ 1,500,000
Inadequate Supporting
Documentation for Claimed              5                        $ 861,044                         861,044
Expenditures
Goods and Services Procured
Without Full and Open                  6                                         239,944          239,944
Competition
Vehicle Used for Daily
Commuting Purposes                     3                                           30,839          30,839
Health Monitors Deployed for
Daily Use                              7                                           25,385          25,385
Training Not Provided to Deploy
Tactical and Rescue Equipment          8       $ 212,166                                          212,166
Memorandum of Understanding
Needed to Deploy Utility Trailers      8          28,150                                           28,150
Agreement Between County and
State Officials Needed to Deploy       8          43,988                                           43,988
Photo Identification System
Frequency Licenses Needed to
Deploy Interoperable Equipment         8        286,499                                           286,499
Computer Equipment Not
Deployed                               8          14,716                                           14,716


Total                                          $ 585,519        $ 861,044     $ 1,796,168   $ 3,242,731




             The State of New Jersey’s Management of State Homeland Security Program and 

          Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                 Page 45

Appendix H
Major Contributors to this Report

                       Michael Siviy, Director, Grants Management Division
                       Dennis Deely, Audit Manager
                       Kevin Donahue, Auditor-in-Charge
                       Christopher Chamberlain, Program Analyst
                       John Jadick, Program Analyst
                       Keith Lutgen, Program Analyst
                       Robert Edwards, Referencer




           The State of New Jersey’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 46
Appendix I
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional oversight and appropriations committees, as
                      appropriate




              The State of New Jersey’s Management of State Homeland Security Program and
           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                                 Page 47
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
